<html>
<title> - BUILDING A FOUNDATION FOR FAMILIES: FIGHTING HUNGER, INVESTING IN CHILDREN</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





   BUILDING A FOUNDATION FOR FAMILIES: FIGHTING HUNGER, INVESTING IN 
                                CHILDREN

=======================================================================

                                HEARING

                               before the

                        COMMITTEE ON THE BUDGET
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

           HEARING HELD IN WASHINGTON, DC, FEBRUARY 12, 2009

                               __________

                            Serial No. 111-3

                               __________

           Printed for the use of the Committee on the Budget







                       Available on the Internet:
       http://www.gpoaccess.gov/congress/house/budget/index.html

                                --------

                   U.S. GOVERNMENT PRINTING OFFICE
47-383 PDF                  WASHINGTON : 2009
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001











                        COMMITTEE ON THE BUDGET

             JOHN M. SPRATT, Jr., South Carolina, Chairman
ALLYSON Y. SCHWARTZ, Pennsylvania    PAUL RYAN, Wisconsin,
MARCY KAPTUR, Ohio                     Ranking Minority Member
XAVIER BECERRA, California           JEB HENSARLING, Texas
LLOYD DOGGETT, Texas                 SCOTT GARRETT, New Jersey
EARL BLUMENAUER, Oregon              MARIO DIAZ-BALART, Florida
MARION BERRY, Arkansas               MICHAEL K. SIMPSON, Idaho
ALLEN BOYD, Florida                  PATRICK T. McHENRY, North Carolina
JAMES P. McGOVERN, Massachusetts     CONNIE MACK, Florida
NIKI TSONGAS, Massachusetts          JOHN CAMPBELL, California
BOB ETHERIDGE, North Carolina        JIM JORDAN, Ohio
BETTY McCOLLUM, Minnesota            CYNTHIA M. LUMMIS, Wyoming
CHARLIE MELANCON, Louisiana          STEVE AUSTRIA, Ohio
JOHN A. YARMUTH, Kentucky            ROBERT B. ADERHOLT, Alabama
ROBERT E. ANDREWS, New Jersey        DEVIN NUNES, California
ROSA L. DeLAURO, Connecticut,        GREGG HARPER, Mississippi
CHET EDWARDS, Texas                  [Vacant]
ROBERT C. ``BOBBY'' SCOTT, Virginia
JAMES R. LANGEVIN, Rhode Island
RICK LARSEN, Washington
TIMOTHY H. BISHOP, New York
GWEN MOORE, Wisconsin
GERALD E. CONNOLLY, Virginia
KURT SCHRADER, Oregon

                           Professional Staff

            Thomas S. Kahn, Staff Director and Chief Counsel
                 Austin Smythe, Minority Staff Director
















                            C O N T E N T S

                                                                   Page
Hearing held in Washington, DC, February 12, 2009................     1

Statement of:
    Hon. John M. Spratt, Jr., Chairman, House Committee on the 
      Budget.....................................................     1
        Additional submission:
            Partnership for America: ``Reading, Writing and 
              Hungry''...........................................    35
    Hon. James P. McGovern, a Representative in Congress from the 
      State of Massachusetts, letter submitted by................     2
        Additional submission:
            The study, ``The Almanac of Hunger and Poverty in 
              America 2007,'' Internet address to................     2
    Hon. Paul Ryan, ranking minority member, House Committee on 
      the Budget.................................................     3
    Hon. Gerald E. Connolly, a Representative in Congress from 
      the State of Virginia, prepared statement of...............     5
    Hon. James R. Langevin, a Representative in Congress from the 
      State of Rhode Island, prepared statement of...............     6
    Hon. Betty McCollum, a Representative in Congress from the 
      State of Minnesota, submissions for the record:
        Policy study, ``Early Intervention on a Large Scale,'' 
          Internet address to....................................    88
        Nobel laureate study, ``Early Intervention on a Large 
          Scale''................................................    89
    Hon. Marcy Kaptur, a Representative in Congress from the 
      State of Ohio, question for the record.....................    95
    Sharon Parrott, director, welfare reform and income support 
      division, Center on Budget and Policy Priorities...........     7
        Prepared statement of....................................     9
        Responses to questions for the record....................    95
    Dr. Deborah A. Frank, founder and principal investigator, 
      Children's Sentinel Nutrition Assessment Program (C-SNAP)..    14
        Prepared statement of....................................    17
        Additional submissions:
            ``Child Nutrition Forum Statement of Principles''....    20
            Table: ``Measures of Food Insecurity by House 
              Committee on the Budget Member's State''...........    34
    Leon Lott, sheriff, Richland County, SC......................    40
        Prepared statement of....................................    42
    Douglas J. Besharov, senior scholar, American Enterprise 
      Institute..................................................    46
        Prepared statement of....................................    49

 
   BUILDING A FOUNDATION FOR FAMILIES: FIGHTING HUNGER, INVESTING IN 
                                CHILDREN

                              ----------                              


                      THURSDAY, FEBRUARY 12, 2009

                          House of Representatives,
                                   Committee on the Budget,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:05 a.m. in room 
210, Cannon House Office Building, Hon. John Spratt [chairman 
of the committee] presiding.
    Present: Representatives Spratt, Schwartz, Doggett, 
Blumenauer, Berry, McGovern, Tsongas, Etheridge, McCollum, 
Yarmuth, DeLauro, Scott, Larsen, Bishop, Moore, Connolly, 
Schrader, Ryan, Hensarling, Lummis, and Nunes.
    Chairman Spratt. I will call the hearing to order. Today we 
meet to consider an important part of the Federal budget, a 
topic that doesn't always get the attention it deserves. 
Investments in fighting hunger and investments in children are 
the right thing to do in the short term, no question about it, 
but they are also prudent, wise investments over the long term 
because without adequate funding our society and our budget pay 
a price that is higher later than if it is avoided now. It is 
easy to say that our children are our future, but harder to 
make the hard choices about what works and where you come up 
with the resources to fund what we know needs to be done.
    I hope our witnesses today, drawing on their research and 
their personal experience, can help us set our priorities and 
help us to invest wisely.
    I want to thank Mr. McGovern of Massachusetts for asking 
that we hold this hearing. He has been a national leader in 
efforts to fight hunger and support efforts to address the 
problem.
    Rather than make an extended opening statement I am going 
to yield the balance of my time to him to make his opening 
statement. Then I will yield to Mr. Ryan for any remarks he 
would like to make. We will then hear from our witnesses: 
Sharon Parrott from the Center on Budget and Policy Priorities; 
Dr. Deborah Frank of the GROW Clinic for Children in Boston; 
Sheriff Leon Lott from Richland County, South Carolina; and 
Douglas Besharov of the American Enterprise Institute.
    I would like to extend a special welcome to Sheriff Lott 
from my home State of South Carolina. He comes from Richland 
County, which adjoins my congressional district. He is here 
today because he is active with Fight Crime: Invest in Kids, a 
network of law enforcement officials who are dedicated to 
finding and promoting better ways of reducing crime. He has an 
impressive record of public service, and we are indebted to him 
for coming today. Thank you very much indeed.
    Now I yield to Mr. McGovern.
    Mr. McGovern. Thank you, Mr. Chairman. And I want to thank 
you for holding this important briefing today. I want to thank 
the witnesses for their time and for their testimony. I 
especially want to thank Dr. Deborah Frank from the Boston 
Medical Center and the C-SNAP program for coming. Her testimony 
has always been a great value to this Budget Committee in 
understanding why we need to invest in hunger, nutrition and 
children's health, so I appreciate it. And I appreciate all the 
witnesses here.
    Let us be clear today. Fighting hunger should be a top 
priority of this Congress and this new administration. Whenever 
we talk about improving the lives of children, about giving 
them better health care and education, we must also talk about 
ending hunger. Ending hunger is not a quixotic endeavor. Many 
of my colleagues may be shocked to hear this from a guy whose 
last name is McGovern. But President Nixon did more to combat 
hunger than any other President, although I hope that will 
change with President Obama.
    In fact, we were on track to end hunger in the 1970s before 
many of the most important anti-hunger programs were slashed 
during the Reagan era. More than 36 million people went hungry 
in America in 2007. Over 12 million of them were children. This 
is unacceptable, and it is time that we make the critical 
investments in programs that are proven to combat and end 
hunger.
    According to a 2007 study commissioned by the Sodexo 
Foundation, more than $90 billion is spent each year on 
addressing the direct and indirect costs related to individuals 
and families who simply don't have enough to eat. This means 
that every single person in the United States pays about $300 
annually towards covering this hunger bill and $22,000 over a 
lifetime. In 2005, direct and indirect costs for illness alone 
were $66.8 billion. And I would like to ask unanimous consent 
to enter into the record the report by Sodexo.
    [The study, ``The Almanac of Hunger and Poverty in America 
2007,'' may be accessed at the following Internet address:]

   http://feedingamerica.org/our-network/the-studies/hunger-almanac-
                               2007.aspx

    Mr. McGovern. But the cost of ending hunger is much less 
expensive than the cost of doing nothing. The same study 
estimates that we could end hunger by simply strengthening 
existing, not new, Federal nutrition programs by about $10 to 
$12 billion over current spending. Specifically, we must 
provide breakfast to every child at school and do so after the 
school day starts. School meals should be provided to all 
children at no cost, and the meals should be healthier. We must 
also ensure that all children who receive a meal during the 
school year are able to eat during the summer months when 
school isn't in session. We also need to make sure that WIC is 
fully funded and that every eligible family is signed up for 
and receiving proper food stamp benefits.
    President Obama has committed to ending childhood hunger by 
the year 2015. Our budget must reflect that. And I look forward 
to working with you, Mr. Chairman, members of this committee, 
and with this administration on this important investment in 
our children's future.
    All of us in Congress talk the talk, but quite frankly we 
haven't always walked the walk. I have yet to meet anybody in 
Congress who is pro hunger. Yet a lot of the budgets that we 
have passed over the years, a lot of the appropriations bills 
that we have passed over the years do not reflect this 
commitment to ending hunger. This is the time to develop a 
comprehensive plan to end hunger and insist on its 
implementation.
    Let me be clear. Our goal should not be to simply hand out 
food, though now unfortunately that is necessary. Our goal 
should be to increase each individual's purchasing power so 
that every person has access to enough healthy food to feed 
them and their families. And ultimately that means an all out 
attempt, an all out effort to end poverty in this country.
    We have a long way to go. We have ignored this problem for 
far too long, and I hope that today is the beginning of a new 
era in which we will build on some of the successes that we 
have already had. In the stimulus package that we are going to 
vote on there is a significant increase in monies for food 
stamps, which is a good thing. In the farm bill that we passed 
last year, though there are lots of parts of the farm bill I 
don't like, the food and nutrition part I do like, and there is 
a $20 billion commitment to new food and nutrition programs. 
And I want to specifically thank my colleague from Connecticut, 
Rosa DeLauro, for her efforts in that. But we are playing 
catchup, and we need to go beyond that and into devising and 
implementing a comprehensive plan to end hunger once and for 
all.
    And I thank you, Mr. Chairman, for allowing me to make this 
opening statement, and I yield back the balance of my time.
    Chairman Spratt. Thank you, Mr. McGovern.
    Mr. Ryan.
    Mr. Ryan. Thank you, Chairman, and welcome, witnesses. Our 
focus today is on American families struggling in this severely 
weakened economy, and specifically the children of those 
families. The most obvious, and I know the well-intentioned, 
response is to increase the size and scope of nearly every 
program that is already on the books and likely even add a few 
more. But what always seems to come as an afterthought, if ever 
at all, is what all these well-intentioned actions will mean 
for the future of those same children Congress is today aiming 
to help.
    CBO tells us its deficit this year will be $1.2 trillion, 
and that is before taking into account the so-called stimulus 
legislation we are voting on today or tomorrow. Compounding 
this is an entitlement crisis looming on the horizon. So I 
think if we are talking about a hearing about the future of 
children, the condition of children, this has got to be a part 
of this conversation.
    Today the Federal Government has an unfunded liability of 
$56 trillion, or about $185,000 for every man, woman and child 
in the United States of America, and that gap between what we 
have promised and what we can actually deliver is growing by an 
incredible $2 to $3 trillion per year.
    What does this mean for our children's future? According to 
the GAO, by the time today's five-year-olds hit their mid-30s 
they will have to pay twice as much in Federal taxes as we do 
now just to keep our largest entitlements afloat in their 
current form. It is important to note that these estimates were 
produced prior to today's economic crisis and assume no new 
spending, no new benefits and certainly not the stimulus bill 
with its hundreds of billions in spending and program 
expansions.
    But if we fail to reform these entitlement programs, we are 
all but guaranteeing an economic crisis for our children that 
will be, as OMB Director Peter Orszag said to this committee 
last September, substantially more severe than what we are even 
facing today. Failing to address the entitlement crisis will 
also mean that our three largest entitlements, Medicare, Social 
Security and Medicaid, alone will grow to consume the size of 
the entire Federal budget today and crowd out every other 
domestic priority, including early childhood education and the 
21 existing food subsidy programs on the books today.
    To be clear, I am not suggesting that Congress throws up 
its hands and says challenges are too great, the debt is too 
large, there is nothing we can do to help those who are in need 
today. Congress has already taken extraordinary steps to 
address the current economic crisis, including the bipartisan 
passage of measures such as temporarily extension of 
unemployment benefits to cushion struggling families from this 
serious economic downturn.
    If you could bring up chart 1, please. Let us look at food 
stamps for another example. Since 2000, we have more than 
doubled the size of this program. According to the 
Congressional Budget Office, food stamp spending will increase 
by 22 percent this year alone, and that increase jumps to 34 
percent with the stimulus bill passing.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    But we simply cannot pretend that the answer to every 
question and every challenge is always just more spending. At 
best the government's well-intentioned efforts to help the 
vulnerable have a mixed record of success and in too many cases 
have simply trapped their beneficiaries in a cycle of 
dependency while adding to our already burden of debt.
    Instead of simply racing to do something for struggling 
families, let us try to do something that uses the lessons of 
the past and actually betters their prospects for the future. 
We all know the elements of this. We have got to get our 
economy back on track now, and that means encouraging the 
investment and job creation critical to get the people kids 
look to to provide for them, their parents, back to work. That 
means we have got to remove tax hikes that in less than 2 years 
will hit workers, businesses and families. And equally 
important, this means beginning to address immediately the 
looming entitlement crisis so that we can give the next 
generation an even better America than that which our parents 
passed to us.
    I thank you, Chairman, and I yield.
    Chairman Spratt. Thank you, Mr. Ryan. I think the committee 
members have pretty well set the bookends for this argument 
today, and there is a lot of room between us to argue and 
consider what is doable, feasible, and what is necessary in 
this critically important area.
    I would like to attend to a couple of housekeeping details. 
First of all, I ask unanimous consent that all members be 
allowed to submit at this point an opening statement for the 
record. If there is no objection, so ordered.
    [The statement of Mr. Connolly follows:]

  Prepared Statement of Hon. Gerald E. Connolly, a Representative in 
                  Congress From the State of Virginia

    Mr. Chairman, I would like to thank you for holding this hearing, 
bringing to light the positive impacts on the health of our economy and 
of our children obtained through investments in childhood development 
and hunger prevention efforts. Investing in the most vulnerable members 
of our society has always been of vital importance; however, in these 
difficult and challenging economic times the need for adequate 
investment becomes ever more critical.
    We know that the current need is great. In 2007, there were 37.3 
million people living below the poverty line in the United States; up 
800,000 from the previous year. Given the current economic downturn, 
especially the 4th quarter GDP decline of 3.8%, one can only surmise 
that without action, the number of Americans living in poverty in 2008 
will grow significantly. In my home communities of Fairfax and Prince 
William Counties in Virginia, our poverty rates may seem low, 5.2% and 
4.9% respectively; however, based on our population size, those numbers 
represent almost 70,000 people living in poverty. In Prince William 
County, more than 500 people are homeless, and Fairfax County has more 
than 2,000 homeless individuals, 1,200 of whom are children. It is 
truly a tragedy that the development of our children is so thoroughly 
impaired, and the negative implications to our economy from the 
opportunity costs of their diminished future potential are staggering.
    The situation is by no means a lost cause; we have already taken 
efforts to alleviate the dire consequences of under investment in our 
children and we have seen that concerted, continual support for our 
children's development pays positive dividends.
    In my district, 15% of Fairfax County schoolchildren and 21% of 
Prince William County schoolchildren are currently receiving free 
lunches at school. That's 40,000 children whose families are too 
impoverished to afford essential nutrition; but thanks to the Richard 
B. Russell National School Lunch Act, we have been able to ensure that 
their nutritional needs are met and they have a chance to succeed. As 
Dr. Frank has explained in her written testimony, providing an adequate 
level of nutrition for our children is essential to their cognitive 
development and their scholastic performance.
    Of course, childhood nutrition is only one component. As Sheriff 
Lott will address, investing in crime prevention efforts today that are 
aimed at our children produces a tremendous return. In my previous role 
as Chairman of the Fairfax County Board of Supervisors, I initiated an 
expansion of our after-school programs from three middle schools to all 
twenty-six. As part of our preventative approach to addressing gang 
crime before it ever started, we were able to expand the legitimate 
opportunities that our children had available to them. The results 
speak for themselves: there was a 50% reduction in gang participation 
among school children and a 32% reduction in gang crime. We saw direct 
results in the schools; 80% of our middle schools reported improved 
academic performance and 76% of the schools reported an improvement in 
overall student behavior as a result of the after school program 
expansion.
    These programs, along with other early childhood health and 
learning initiatives have shown verifiable results in the improvement 
of our children's development and in their increased productivity in 
our economy in the future; however, due to the current economic 
situation, they are in jeopardy. Most state and local governments are 
faced with budget shortfalls and may be forced to reduce even essential 
programs. We cannot allow our children to operate at a competitive 
disadvantage. We cannot allow our children to have no place to call 
home. We cannot allow our children to remain mired in poverty. We 
cannot allow our children to go to bed hungry and wake up malnourished. 
For the good of our children and for our nation, we must make the 
critical investments in our children so they have the opportunity to 
make future investments in America.
    Mr. Chairman, I would like again to thank you and Mr. McGovern for 
your leadership on this issue and for fighting for our children's 
futures.

    [The statement of Mr. Langevin follows:]

   Prepared Statement of Hon. James R. Langevin, a Representative in 
                Congress From the State of Rhode Island

    Mr. Chairman, I would like to thank you for holding this very 
important hearing to examine the real economic and human benefits of 
investing in our children and fighting hunger and poverty. This is an 
extremely relevant topic, both in the context of the economic recovery 
package that came out of conference just yesterday, as well as the 
upcoming budget cycle. It is also an issue in which I have been 
involved in my home state of Rhode Island--particularly through my work 
with the Rhode Island Community Food Bank.
    According to the USDA (Economic Research Report No. 66), there were 
47,000 food insecure households in Rhode Island in 2007, meaning that 
10.9 percent of all households were unable to afford adequate food. 
Since the USDA survey was completed, the unemployment rate in Rhode 
Island has doubled, now reaching 10 percent. With this downturn in the 
economy, the Rhode Island Community Food Bank and its network of member 
agencies have seen a dramatic increase in need, particularly in the 
last six months of 2008. Rhode Island food pantries are now serving 
over 45,000 people each month.
    While programs like the Rhode Island Food Bank rely on a mix of 
funding streams to support their efforts, it is clear that government 
investment will be crucial to the continued success of these programs. 
Given this fact:
    <bullet> What are the most effective programmatic investments to 
address hunger and poverty contained in the economic stimulus package, 
particularly in terms of their ability to stabilize families and 
promote economic activity?
    <bullet> What programs not contained within the stimulus bill 
should this committee consider for future budgetary priorities in 
addressing hunger and poverty?
    While the Food Bank and its member agencies are at capacity, the 
federal nutrition programs are underutilized in Rhode Island. In 
particular, the latest USDA report (Food and Nutrition Service, October 
2008) ranks Rhode Island has having one of the lowest participation 
rates in the country in the Food Stamp Program, now known as the 
Supplemental Nutrition Assistance Program (SNAP). Increased effort to 
enroll people in SNAP would translate into more people receiving the 
food resources they need for their families, and less pressure on the 
emergency food safety net, which is already stretched to the limit. I 
am, therefore, interested in determining:
    <bullet> How can provisions for increased SNAP benefits in the 
stimulus best be utilized by states like Rhode that have such a low 
participation rate?
    <bullet> Are there additional budgetary considerations that this 
committee can make to properly address this problem?
    Mr. Chairman, thank you again for holding this important hearing. I 
look forward to working with this committee and my colleagues in 
Congress to determine the most effective and sustainable means to 
address these critical issues.

    Chairman Spratt. Now, to our panel of witnesses, thank you 
for coming, thank you for the efforts you have put into coming. 
We have your testimony, we will make it part of the record so 
that you can summarize it. But we have got one panel this 
morning I believe, and take your time and explain your position 
because we are going to have questions for you afterwards.
    Thank you again for coming. We look forward to your 
testimony, and we will begin with Sharon Parrott, who is the 
Director of Welfare Reform and Income Support Division at the 
Center on Budget and Policy Priorities. Ms. Parrott.

   STATEMENT OF SHARON PARROTT, DIRECTOR, WELFARE REFORM AND 
INCOME SUPPORT DIVISION, CENTER ON BUDGET AND POLICY PRIORITIES

    Ms. Parrott. Thank you very much, and thank you for 
inviting me here today. I am going to focus my remarks here 
this morning on the current economic downturn, its impacts on 
poverty and families in the recovery package. And I am happy in 
the question period to talk more about the longer term.
    First the bad news. I don't have to tell you that the 
current recession has already pushed the unemployment rate from 
4.9 percent in December 2007 to 7.6 percent in January 2009. We 
are nearly to an unemployment rate that represents the very 
highest unemployment rate in the recession of the early 1990s.
    Alternative measures of the labor market paint an even 
bleaker picture. Almost one in seven workers is either 
unemployed, involuntarily working part time or is jobless, 
willing to work but has become discouraged from looking for 
work, typically after being unsuccessful for many weeks. 
Private and government payrolls combined have shrunk for 13 
straight months and net job losses since the recession total 
3.6 million. Rising joblessness leads to increases in poverty. 
It happens in every recession. Not only does poverty go up, but 
people lose health insurance and hardship grows.
    While the census data on the most recent changes in poverty 
won't be available for some time we have other indicators that 
unfortunately already point to a rise in poverty. The clearest 
recession indicator is a dramatic rise in recent months in the 
food stamp caseloads. Between December 2007 and November 2008 
caseloads rose by 3\1/2\ million people, or 13 percent. In 28 
States at least one in five children now receives food stamps 
and about 30 million Americans now need help from the food 
stamp program to buy groceries.
    In another indication of rising poverty and hardship data 
from various sources show that homelessness is on the rise 
amongst families with children in many parts of the country. 
One in five school districts that responded to a recent 
national survey reported having more homeless children in the 
fall of 2008 than they saw over the entire 2007-2008 school 
year. Schools have to track homeless children because of the 
particular services they provide them. So it provides a very 
good source of data. A number of cities have reported increases 
in families seeking shelter.
    The housing market's ongoing troubles heighten the 
potential for rising homelessness. Home foreclosures have 
pushed many owners into the rental market and have left many 
renters without a place to live when their properties that they 
live in, and they may be fully current in their own rent 
payments, when those units are foreclosed on they are often 
tossed out. That is rising up rental costs in some markets and 
making it difficult for people to secure affordable housing.
    In addition, a number of States and localities are 
beginning to cut back on homelessness prevention programs due 
to the very serious budget shortfalls at the State and local 
level.
    Using the historical relationship between poverty and 
unemployment, we estimate that if the unemployment rate rises 
to 9 percent, as has been projected by Goldman Sachs in prior 
weeks, the number of poor Americans will rise above its 2006 
level by between 7\1/2\ and 10 million people, and the number 
of poor children will rise between 2.6 and 3.3 million 
children.
    In addition to pushing up unemployment and poverty, the 
recession is also wreaking havoc on State budgets by shrinking 
revenues and raising costs. We estimate that the cumulative 
State deficits for the rest of 2009 and the next two State 
fiscal years are a cumulative total of $350 billion, and this 
excludes the large deficits that many local governments are 
also facing. As State budget holes have opened up States 
already are having to make very painful budget cuts. Just a 
couple of examples.
    At least 28 States have proposed or eliminated cuts that 
will reduce low-income children or a family's eligibility for 
health insurance or reduce their access to health care 
services. At least 26 States have proposed or implemented cuts 
in K through 12 or early education. At least 22 States have 
proposed or implemented cuts to medical rehabilitative home 
care and other services needed by low-income people who are 
elderly and who have disabilities. And at least 32 States have 
proposed or eliminated cuts in public universities and 
colleges.
    Cuts like these ripple through the economy, worsening the 
downturn. When States and localities reduce funding for schools 
or scale back day programs for the frail elderly or cut back on 
child care programs, this shrinks overall demand for the 
products and services that the public and private entities 
provide. This results in a loss of jobs in both the public and 
private sectors.
    But now I want to turn to the good news. The final economic 
recovery package, the details of which are now emerging, will 
ameliorate projected increases in poverty and hardship and help 
avert some painful cuts in critical services at the State 
level. First, by boosting overall demand, the package will 
reduce projected job losses, which means fewer families will 
have their jobs lost and fewer will be pushed into poverty.
    Second, the package targets relief on low-income families 
hard hit by the downturn and those who have lost their jobs. 
This relief will help keep some families out of poverty and 
keep others from falling deeper into poverty.
    And third, by providing fiscal relief to States, the 
package will help plug gaping holes and forestall some cuts or 
tax increases that States otherwise would have to make.
    While not perfect, the recovery package is for the most 
part well designed to produce significant stimulus and to 
produce it as quickly as possible. It includes high bang for 
the buck items such as expansions in food stamps and 
unemployment insurance, provisions that a broad range of 
economists and the Congressional Budget Office have rated as 
the most highly stimulative forms of spending. It also includes 
funding for infrastructure projects which are highly 
stimulative once underway.
    It includes tax cuts, some of which are targeted on low and 
moderate income households who are among the most likely to 
spend the money and to spend it quickly, thereby boosting 
aggregate consumer demand and the economy. It also increases 
funding for a range of programs, such as education, child care 
and job training, programs that can spend the money quickly and 
stimulate demand while also serving a useful public purpose.
    These measures will make the current recession less 
damaging both in economic and in human terms. The package also 
includes about $140 billion in fiscal relief for States. This 
is less than the House package included, but still a 
significant amount that will reduce the need for both cuts in 
critical services and tax hikes at the State and local level.
    However, the overall fiscal relief in the package closes 
less than half of States' projected by the deficits over the 
next two and a half years. The tough choices for State 
policymakers and painful cuts for families and residents will 
still be required.
    Unfortunately, the final agreement lacks the provision in 
the House recovery bill to give States the option of providing 
Medicaid coverage to workers who are laid off during the 
recession. Under the standard Medicaid program unemployed 
parents typically cannot receive Medicaid coverage unless their 
income sinks to below half the poverty line, and other workers 
without children who have been laid off are typically shut out 
of the Medicaid program no matter how poor they are. Without 
this provision, large numbers of Americans unfortunately are 
likely to lose their health care coverage and access to health 
care coverage in the recession.
    Still, this package remains a real accomplishment in my 
view. It reflects the best thinking about what provides the 
highest bang for the buck stimulus of a broad range of 
economists. Relief for low-income families and the unemployed, 
fiscal relief for States, infrastructure investment and funding 
in programs that can spend the money quickly and serve a useful 
public purpose. The package in my view will provide effective 
stimulus to an ailing economy and will push back against a 
rising tide of poverty and hardship.
    Thanks.
    [The prepared statement of Sharon Parrott follows:]

  Prepared Statement of Sharon Parrott, Director, Welfare Reform and 
    Income Support Division, Center on Budget and Policy Priorities

    Thank you for the opportunity to speak with you today about the 
current recession, its impacts on poverty and families, and the 
recovery package.
    The current recession already has pushed up the unemployment rate 
from 4.9 percent in December 2007 to 7.6 percent in January 2009. 
Alternative measures of the labor market paint a bleaker picture. 
Almost one in seven workers--some 13.9 percent of all workers--are 
unemployed, involuntarily working part time, or are jobless and 
available for work but have grown discouraged from looking for work. 
Private and government payrolls combined have shrunk for 13 straight 
months, and net job losses since the start of the recession some 14 
months ago total 3.6 million. And, those who have lost jobs are having 
a very difficult time finding a new one: more than one-fifth (22.4 
percent) of the 11.6 million unemployed have not been able to find a 
job despite looking for 27 weeks or more.
    Rising joblessness leads to increases in poverty, losses in health 
insurance, and growing hardship. While Census data on changes in 
poverty in recent months will not be available for some time, other 
indicators point to a rise in poverty. The clearest such indicator is a 
dramatic increase in recent months in caseloads for the Food Stamp 
Program (recently renamed the Supplemental Nutrition Assistance Program 
or SNAP): between December 2007 and November 2008 (the latest month 
available), caseloads rose by 3.5 million or 13 percent. In 28 states, 
at least one in every five children is receiving food stamps. As Figure 
1 shows, food stamp caseloads have historically tracked poverty and 
unemployment.
    In another indication of growing poverty and hardship, data from 
school districts around the country as well as other state and local 
data sources show that homelessness is on the rise among families with 
children:\1\
    <bullet> The number of families entering New York City homeless 
shelters jumped by 40 percent between July--November 2007 and July--
November 2008.\2\
    <bullet> Massachusetts reports a 32 percent increase between 
November 2007 and November 2008 in the number of homeless families 
residing in state-supported emergency shelters.\3\
    <bullet> Hennepin County, Minnesota (Minneapolis) reports a 20 
percent increase in the number of homeless families in emergency 
shelters between the first ten months of 2008 and the comparable period 
in 2007.\4\
    <bullet> Los Angeles County reports a 12 percent increase between 
September 2007 and September 2008 in the number of families receiving 
welfare assistance who are known to be homeless.\5\
    Two recent national surveys support these data. In a fall 2008 
survey by the U.S. Conference of Mayors, 16 of the 22 cities that 
provided data on the number of homeless families with children reported 
an increase in 2008, some of them substantial. (Louisville reported a 
58 percent increase.) \6\ In another national survey, one in five 
responding school districts reported having more homeless children in 
the fall of 2008 than over the course of the entire 2007-2008 school 
year.\7\
    The housing market's ongoing troubles heighten the potential for 
significant increases in homelessness during this recession. Home 
foreclosures have pushed many owner and renter families into the rental 
market, driving up rents in some areas by increasing the demand for 
housing--despite falling incomes and rising unemployment. In addition, 
a number of state and localities are beginning to cut back homelessness 
prevention programs due to large state and local budget shortfalls, 
even as the need for these programs grows.
           how much will poverty rise during this recession?
    Goldman Sachs projects that the unemployment rate will rise to 9 
percent by the fourth quarter of 2009 (the firm has increased its 
forecast twice in the last month). If this holds true and the increase 
in poverty relative to the increase in unemployment is within the range 
of the last three recessions, the number of poor Americans will rise 
above its 2006 level by 7.5-10.3 million, the number of poor children 
will rise by 2.6-3.3 million, and the number of children in deep 
poverty will climb by 1.5-2.0 million. (This increase will not take 
place in a single year, but will occur over several years.) \8\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    A strong recovery package would reduce these increases in poverty, 
in three ways. First, by boosting overall demand, it would reduce 
projected job losses, which means fewer families would be pushed into 
poverty. Second, the package now before Congress includes a number of 
provisions to assist struggling families that would keep some families 
out of poverty and keep others from falling into deep poverty. (These 
include a temporary increase in SNAP benefits, a temporary expansion of 
the EITC and Child Tax Credit, an extension and increase in 
unemployment benefits, resources for states with rising TANF caseloads, 
health coverage to unemployed workers, and emergency shelter grants to 
prevent homelessness.) Third, as discussed below, fiscal relief to help 
states avert deeper budget cuts would help support critical public 
services, including supports for vulnerable families.
    We examined the likely impact on poverty of three tax provisions in 
the bills: the Making Work Pay credit, the EITC expansions, and the 
expansion of the refundable portion of the Child Tax Credit. Under the 
House Child Tax Credit expansion, these three tax provisions would 
protect some 2.7 million people from poverty, including 1.1 million 
children.\9\ Other provisions, such as the temporary increase in SNAP 
benefits and the unemployment insurance provisions, also would help 
protect some families from poverty and reduce the depth of poverty for 
many others.
states are cutting services to help close budget gaps, further slowing 
                              the economy
    The downturn has wreaked havoc on state budgets. States are facing 
mammoth deficits: we estimate the cumulative deficit for the rest of 
2009, 2010, and 2011 at $350 billion. This figure does not include the 
large budget gaps many local governments now face.
    The claim that the deterioration in states' fiscal conditions 
reflects shoddy planning on the part of states is false. Not only do 
states balance their operating budgets each year, but states entered 
this recession with the largest budget reserves in their history. But 
because of the recession, which has sharply reduced projected state 
revenues while increasing state costs in areas such as health care, 
these reserves are mostly gone and states now face large shortfalls. 
The fact that the states with the sharpest increases in unemployment 
are also the states with largest shortfalls is further evidence that 
the economy, not fiscal mismanagement, is to blame.
    As state budget holes have opened up, states have already made a 
series of painful budget cuts.\10\ For example:
    <bullet> At least 28 states have proposed or implemented cuts that 
will reduce low-income children's or families' eligibility for health 
insurance or reduce their access to health care services.
    <bullet> At least 26 states have proposed or implemented cuts to K-
12 and early education.
    <bullet> At least 32 states have proposed or implemented cuts to 
public colleges and universities.
    <bullet> At least 38 states and the District of Columbia have 
proposed or implemented cuts affecting state workers.
    Cuts like these ripple through the economy, worsening the downturn. 
For example, when states and localities reduce funding for schools, 
scale back day programs for seniors, or cut back on child care 
programs, this shrinks overall demand for the products and services 
that public and private entities provide. This results in the loss of 
jobs in both the public and private sectors.
   recovery bill would help flagging economy and struggling families
    For the most part, both the House and Senate recovery packages are 
well-designed to produce significant stimulus as quickly as possible. 
They includes fast-spending, high ``bang for the buck'' items such as 
expansions in food stamps and unemployment insurance--provisions that a 
broad range of economists and CBO have rated as the most highly 
stimulative types of spending. They also include state fiscal relief, 
which is essential to moderate the depth of the budget cuts and tax 
increases that states will have to impose. In addition, they include 
funding for infrastructure projects, which are highly stimulative once 
underway. And, they include tax cuts, some of which are targeted on 
low- and moderate-income households who are likely to spend the bulk of 
the money, thereby boosting the economy. Finally, both packages 
increase funding for a range of programs--such as education and job 
training--that can spend the money quickly and serve a useful public 
purpose to further stimulate demand in the economy.
    According to the Congressional Budget Office (CBO) and the Joint 
Committee on Taxation, 85 percent of the spending and tax cuts in the 
House bill, and 94 percent of the spending and tax cuts in the Senate 
bill, would occur during fiscal years 2009--2011, a period during which 
CBO predicts the economy will be operating at far below its potential 
and fiscal stimulus thus would be beneficial.
             criticisms of recovery packages miss the mark
    While the House and Senate packages are by no means perfect, many 
of the criticisms that have been leveled against the bills reflect a 
failure to grasp key points about economic stimulus in general and the 
bills in particular:\11\
    <bullet> Spending in safety net programs is effective stimulus--not 
simply a nice thing to do. Some critics argue that spending on safety 
net programs like food stamps and unemployment insurance may be 
justified on humanitarian grounds but does not provide stimulus or 
create jobs in the way that reductions in, say, taxes for businesses 
would. In fact, this argument is completely backward in a recession.
    When businesses cannot sell everything they can make, the way to 
help them retain workers and encourage them to expand is to give their 
customers more money to spend. When you increase benefits for 
unemployed workers or food stamp recipients, they spend the money 
quickly and the benefits spread through the economy. Whatever the 
merits of business tax cuts as a long-term strategy to promote economic 
growth, they are ineffective at putting more customers in stores.
    <bullet> Fiscal relief for states bolsters demand and saves jobs. 
In an economic downturn, states see their revenues fall off and their 
caseloads for safety net programs like Medicaid increase. As deficits 
begin to emerge, states must cut existing programs or raise new 
revenues. Those actions translate into layoffs of state workers, 
cancellation of contracts with vendors, and less help for needy 
families facing hardship--all of which reverberate through the economy, 
adding to the job losses and further suppressing economic activity. 
Fiscal relief allows states to cut programs or raise taxes by a smaller 
amount than they otherwise would have to; this helps prop up the 
economy and preserve jobs.
    <bullet> Spending increases and tax cuts in the package are 
temporary. Very little of the spending authority in the bill extends 
beyond 2011, and the evidence from past fiscal stimulus legislation is 
that Congress does allow temporary measures such as unemployment 
insurance and state fiscal relief to expire once the economy recovers.
    To be sure, some policymakers may want to make permanent such 
provisions as the Making Work Pay Tax Credit and the expansion in the 
Child Tax Credit. But they will have to do so in the context of the 
normal budget process, where budget enforcement procedures will be in 
place.
    With respect to infrastructure, the recovery package provides a 
large one-time boost to spending authority; the actual expenditures 
from that authority occur over a number of years, but the amount 
diminishes rapidly after 2011. Maintaining levels of infrastructure 
spending above those amounts would require annual appropriations 
through the normal budget process.
    Similarly, while some areas need increased long-term investment, 
such as early education and child care, the place to sort out these 
long-term priorities is the normal budget process, with pay-as-you-go 
rules in place and reasonable limits on discretionary funding levels. 
Neither the House nor the Senate package appears to presuppose the 
outcome of those long-term decisions.
    <bullet> Well-designed spending provides more stimulus per dollar 
than tax cuts. Goldman Sachs recently rated a number of proposals in 
the House package according to their ``bang for the buck''--that is, 
how much economic demand they generate for each $1 in cost. It found 
that spending on infrastructure, benefit programs for low-income people 
and people who have lost their jobs, and fiscal relief to states 
outperformed tax cuts for individuals or businesses.
    This is not to suggest that money in the packages could not be 
redirected in ways that could improve the stimulus impact. For example, 
some of the tax cuts in both packages have low ``bang for the buck'' as 
stimulus, as explained below. In addition, there are undoubtedly 
spending items that are not well designed. But the funding associated 
with these programs is likely to be small, since the bulk of the 
spending in both bills falls into categories that are highly 
stimulative--aid to struggling families and unemployed workers, fiscal 
relief for states, K-12 and higher education, and infrastructure.
                                endnotes
    \1\ For more information, see Barbara Sard, ``Number of Homeless 
Families Climbing Due to Recession,'' Center on Budget and Policy 
Priorities, January 8, 2009, http://www.cbpp.org/1-8-09hous.htm.
    \2\ Data provided by the New York City Department of Homeless 
Services.
    \3\ Data provided by Julia Kehoe, Commissioner, Massachusetts 
Department of Transitional Assistance.
    \4\ Memorandum from staff of the Minnesota Housing Finance Agency 
to the Board of Directors, December 18, 2008.
    \5\ Data from CalWORKS Program Division, Los Angeles County.
    \6\ Abt Associates, ``U.S. Conference of Mayors 2008 Status Report 
on Hunger and Homelessness,'' December 2008, http://www.usmayors.org/
pressreleases/documents/hungerhomelessnessreport--121208.pdf.
    \7\ Barbara Duffield and Phillip Lovell, ``The Economic Crisis Hits 
Home: The Unfolding Increase in Child and Youth Homelessness,'' 
National Association for the Education of Homeless Children and Youth 
and First Focus, December 2008, http://www.naehcy.org/dl/
TheEconomicCrisisHitsHome.pdf. The voluntary survey was conducted 
October 24--December 10, 2008.
    \8\ For more information, see Sharon Parrott, ``Recession Could 
Cause Large Increases in Poverty and Drive Millions into Deep 
Poverty,'' Center on Budget and Policy Priorities, November 24, 2008, 
http://www.cbpp.org/11-24-08pov.htm.
    \9\ These figures are not based on the same measure of poverty as 
the previously cited projections of recession-related increases in 
poverty and cannot be directly compared with them. Those earlier 
projections are based on the government's official measure of poverty, 
which considers only a family's pre-tax cash income and thus cannot 
register the effect of the tax credits examined here. To measure their 
effects, we used a poverty measure that follows recommendations of the 
National Academy of Sciences; this measure considers income after taxes 
and counts as income the value of certain government non-cash benefits 
such as food stamps and subtracts the value of out-of-pocket medical 
expenditures and work expenses. The measure also uses a slightly 
modified poverty line.
    \10\ For more information, see Nicholas Johnson, Phil Oliff, and 
Jeremy Koulish, ``Facing Deficits, At Least 40 States Are Imposing or 
Planning Cuts That Hurt Vulnerable Residents,'' Center on Budget and 
Policy Priorities, revised February 10, http://www.cbpp.org/3-13-
08sfp.htm.
    \11\ For more information, see Chad Stone, ``Attacks on 
Congressional Recovery Package Don't Withstand Scrutiny,'' Center on 
Budget and Policy Priorities, February 5, 2009, http://www.cbpp.org/2-
5-09bud.htm.

    Chairman Spratt. Thank you very much. And now Dr. Deborah 
Frank, who is the Director of the--well, who is a Professor of 
Pediatrics at the Boston University, a graduate of Harvard 
Medical School, and Director of the GROW Clinic at the Boston 
Medical Center in Boston. Thank you for coming. Again we look 
forward to your testimony.

  STATEMENT OF DEBORAH A. FRANK, M.D., FOUNDER AND PRINCIPAL 
 INVESTIGATOR OF THE CHILDREN'S SENTINEL NUTRITION ASSESSMENT 
PROGRAM, AND DIRECTOR OF THE GROW CLINIC FOR CHILDREN AT BOSTON 
                         MEDICAL CENTER

    Dr. Frank. Distinguished Chairman and committee members, I 
was honored to speak before you 2 years ago, and I am really 
grateful that you give me an opportunity again to speak on 
behalf of all children, but particularly the quietest and most 
invisible victims of the recession, who are the youngest 
children. Since I last spoke there have been some important 
policy advances, particularly the farm bill and funding for low 
income energy assistance. And I am half ecstatic to hear that 
food stamps, now called SNAP, will get more money, because 
heaven knows it is needed.
    But alas, I must tell you that the plague of inadequate 
nutrition and its consequences for our young families has so 
far outstripped the availability of treatment and prevention. 
Most of the data that all of us will give you today is really 
out of date because it was collected before the current 
recession. But I can tell you from up-to-the-minute clinical 
experience that the grim economic news is reflected daily in my 
clinical practice and supported by research that my colleagues 
and I have conducted as part of C-SNAP, which we are going to 
rename Children's Health Watch so as not to get it muddled up 
with SNAP, the food stamp program. I really sort of want to 
start from experiences in the trenches of clinical care.
    It was hard for me to get away because just since August my 
young colleagues and I have had to hospitalize 12 severely 
malnourished babies all under a year of age, which is double 
the number in the preceding 12 months before August. Let me 
tell you about one of them.
    Let us call him Joey. His father is a skilled construction 
worker who whenever there is work travels around the country 
with crews to install drywall. His mother used to have a job in 
retail, but 12 months before we met Joey she was laid off. And 
nevertheless she stuck with her prenatal care and she was on 
WIC and she delivered a healthy baby, 7-pound baby. And then 
soon after that the father couldn't find any work as the 
economy brought construction to a halt.
    So the family had to leave their market rent apartment and 
crowd five people into the living room of a not very welcoming 
relative. These kids are not reflected in the homeless 
statistics. We call them the hidden homeless. They are not in 
the shelter system, they are not in motels, they are not 
counted in street surveys, but there are lots of them.
    Joey's mother was breast feeding and she lost her milk 
because of the stress. There was a muddle because WIC couldn't 
change her vouchers for a month. And when I met him at 5 months 
of age he only weighed 9 pounds. That is 2 pounds over his 
birth weight, the weight of a normal one-month-old, and he was 
third degree malnourished by an international criteria you 
could name looking like an overseas relief poster. He had 
gotten diarrhea from his big sister who went to school, and she 
recovered but he didn't because malnutrition weakens your 
immune system so much. And then the more malnourished you 
become the weaker your immune system becomes.
    Despite that he still smiled, which startled us. Children 
who are malnourished are not supposed to smile. But he was a 
baby who was loved and had spent hours being held by his family 
who were terribly worried about him and their inability to meet 
his needs. And when we went out and made a home visit it wasn't 
just Joey who wasn't getting enough to eat. It turned out the 
older children were drinking watered down milk purchased with 
the family's important but inadequate SNAP benefits, food 
stamps. And because the mother's unemployment benefits had 
totally run out that was all they had.
    Joey had intensive hospital care for thousands of dollars, 
and he certainly looks a whole lot better. I think when he came 
in I would have thought that he might not have lived to be 
taxed, as Mr. Ryan pointed out, when he was 30. In fact I was 
pretty worried. But now at 7 months he weighs 12 pounds, 
although he still can't sit up.
    And this child is sort of the tip of the iceberg of 
children whose survival is threatened by the current economic 
conditions. Now, many of the kids are not as sick as Joey. We 
treat them as outpatients. But they suffer impairments of their 
health and their developmental potential. In 2008, our referral 
rates of underweight babies to our clinic went up 12 percent 
and our referral rate is double what it was in 2000.
    Now, I am sure people on the committee and your colleagues 
will tell me, well, this is very nice, Doctor, but it is all 
anecdotal, and that is why we do research. And there are a lot 
of statistics that my colleagues and others have gathered that 
even very mild food insecurity, without any change in the 
physical size of the child, and so children would be unnoticed 
by their clinicians, is a very measurable risk for poor health, 
hospitalizations, and developmental delays, at least in the 
youngest children, and actually also for developmental problems 
in school age.
    Before the current survey national surveys, which only are 
unfortunately current through 2007, showed that 11 percent of 
all adults and 17 percent of all children under 18 were food 
insecure. Again that doesn't sound very dire, but I can tell 
you our research says that that is a measurable insult to 
children. Even more scary, the total number of kids in 
households with, quote, very low food security, which is now 
the delicate term that is used for what the government used to 
call hunger, but I gather that is not polite anymore, increased 
by over 60 percent. And again, the younger the child, the more 
vulnerable. In households with at least one child younger than 
age 6 the number more than doubled. So that more than a quarter 
million, it is actually almost 300,000 are regularly missing 
meals.
    For your interest we have appended a chart for the members 
of the committee showing the 2007 rates for households with 
insecurity, that is everybody, and specific data for the kids 
in the States that we conduct children's health watch, but the 
child data is only calculable from government stuff from 2003 
to 2005, so it is really out of date.
    If we look at the first 6 months of 2008 in the baby world 
where I work, food insecurity seems to be up about 34 percent. 
But we would be hesitant about those numbers until we get a 
full year and can analyze them in a multi-variate analysis. 
There has been lots more research which says that 
scientifically food insecurity affects children's development. 
We have published it in the New York Academy of the annals--
annals of the New York Academy of Sciences, which I would like 
to submit, in a report called Nourishing Development. 
Developmental risk is something that is now supposed to be done 
in all pediatric offices. There is an eight-item questionnaire 
called the PEDS that we do, and it basically refers to slow or 
unusual development in speaking, moving or behavior, and it is 
a very good predictor that a child will have later school 
problems. We have shown that even after considering multiple 
background characteristics food insecure kids under the age of 
3 are 76 percent more likely to be at developmental risk than 
similar children who are food secure. And underweight children, 
who are sort of more severe, are 166 percent more likely to be 
at developmental risk.
    We know that the developmental effects of poor nutrition in 
early childhood persist long after the acute nutritional 
deprivation has been treated because it is very hard to reverse 
an insult occurring at a time of rapid brain growth. It is sort 
of like the hardware of the computer. You just end up with less 
efficient hardware. It is not that it can't work at all, but it 
is a lot harder to program it with the software, which I think 
is Head Start and things that people will talk about, since 
children are neither ready to learn in the near term nor ready 
to earn in adulthood.
    Now this isn't a new epidemic, as Representative McGovern 
pointed out, of nutritional deprivation, ill health and 
impaired learning, but it is one that is becoming more 
virulent. And besides adequate funding that will support 
income, as Ms. Parrott reported, targeted nutritional programs 
such as SNAP and child nutrition which nourish children from 
the womb through high school graduation are essential.
    I would like to submit for the record the Children's 
Nutrition Forum statement of principles which we signed on to. 
We are also going to publish, but I can't tell you about it 
because it is embargoed, research on the health and 
developmental effects of WIC in the 21st century, and others 
have good data showing the important impact of school meals and 
childcare feeding. But as with SNAP, to assure the quality and 
wide availability of these medicines to the increasing number 
of children in need, significant new funding will be necessary.
    I was interested by Mr. Ryan's chart because we have lots 
of data showing that the medicine of food stamps doesn't meet 
anywhere near the full population of eligible children. It has 
gone up. But in fact, and the dose is still inadequate. So I 
don't know whether that food stamp chart was good news or bad 
news. From my perspective it was good news, but not good enough 
news.
    I know from listening to the news that there is much 
discussion of entities that are, quote, too big to fail. But I 
will suggest to you that our children are really too important 
to fail. Since their whole life trajectories are being set 
today in the womb and in the early years of life and they 
really can't wait until tomorrow, investment in the health and 
nutrition of our children will have short-term economic 
benefits because people spend money for food, but also long-
term economic payoff in terms of decreased health care and 
special education costs. These were calculated by my colleague 
Dr. John Cook, who is an economist, I am not an economist. And 
the long-term benefit to society of course is a more productive 
and competitive workforce to handle the burdens that Mr. Ryan 
laid out. I would think that not all economic infrastructure 
development is done with a shovel.
    And finally, I want to bring all the complicated numbers 
and the stuff that we submitted that is flying around back to 
the lives of young children, because every number has a name 
and a face. A few weeks ago I walked into my exam room and 
there was a little 3-year old sitting at our toddler table 
eating graham crackers and milk because we raised money to give 
those to our visitors, and she looked up at me and she said, 
Dr. Frank, this morning my stomach hurted me. Of course, I 
immediately went on alert and began to run in my head the 
differential of hurting stomachs in 3-year-olds. The first 
thing I knew it wasn't, it wasn't appendicitis. Kids with 
appendicitis don't have any appetite. So I said, okay, good. 
But was it this, was it that. And the mother was watching my 
face and she saw me sort of thinking about the blood tests and 
the urines I was going to do, and she looked and me and she 
said, Doctor, it was just the hunger that was paining her and 
she will be okay now. So hunger hurts, and children who are 
verbal tell us so.
    And so I am here to ask you to do what you can to relieve 
their pain, not only because doing so will stimulate the 
economy in the short and long term; it is because it is the 
right thing to do for children today when they are hungry.
    Thank you for your attention.
    [The prepared statement of Deborah Frank follows:]

   Prepared Statement of Dr. Deborah A. Frank, Founder and Principal 
   Investigator, Children's Sentinel Nutrition Assessment Program (C-
   SNAP), Director, Grow Clinic for Children at Boston Medical Center

    Mr. Chairman and distinguished Committee members, I was honored to 
speak before this august panel two years ago and am very grateful to be 
again given an opportunity to speak on behalf of all children and, in 
particular, the quietest and most invisible victims of the current 
economic recession, our youngest children. Since I last spoke with you 
there have been some important policy advances in prevention and 
treatment of nutritional deprivation, particularly the recent Farm Bill 
and increased funding for the Low Income Home Energy Assistance 
Program. But, alas, I must tell you that the plague of inadequate 
nutrition and its consequences for our young families so far has 
outstripped the availability of treatment and prevention. Much of the 
data that all of us on the panel give you today is already out-of-date 
since it was collected before the onset of the current 14 month 
recession, but I can tell you from up--to-the-minute clinical 
experience that the grim economic news is reflected daily in my 
clinical practice and supported by research that my colleagues and I 
conduct in the Children's Sentinel Nutrition Assessment Program (C-
SNAP). In March C-SNAP will be renamed Children's HealthWatch, at least 
in part to avoid confusion with the recently renamed Food Stamp 
Program, which is now SNAP. Today, I will refer to our research center 
as Children's HealthWatch to avoid any confusion with SNAP.
    To begin I want to share experiences from the trenches of clinical 
care. Just since August, my colleagues and I at Boston Medical Center 
have had to hospitalize 12 severely malnourished babies all under a 
year of age. That is double the number we hospitalized in the preceding 
12 months.
    Let me just tell you about one of these babies. I'll call him Joey, 
whom we admitted just before Christmas. His father is a skilled 
construction worker, who, whenever there is work, travels around the 
country with construction crews installing dry wall. His mother used to 
have a job in retail but, 12 months before Joey's admission, like so 
many Americans, she lost her job. Despite these challenges, five months 
ago, she delivered Joey, a healthy, seven pound baby thanks to WIC and 
excellent prenatal care. Soon after the baby's birth, the father was 
unable to find any work as the economy brought most construction to a 
halt. The family had to leave their market rent apartment and crowd 
five people into the living room of a not very welcoming relative. 
Joey's mother, who was breastfeeding, lost her milk from the stress. 
When I met Joey at five months of age he weighed only nine pounds, the 
weight of a normal one month old and was by international standards 3rd 
degree malnourished, looking like a baby from an overseas relief 
poster. His malnutrition was exacerbated by diarrhea that he had 
acquired from his school-age sister. She recovered but because his 
immune system was so weakened by malnutrition, he could not deal with 
the infection.
    Despite that he still smiled. He was a baby who was loved and had 
spent hours being held by his family that was terribly worried about 
him and their inability to meet his needs. It wasn't just Joey who 
wasn't getting enough to eat. It turned out the other children were 
drinking watered milk purchased with the family's important but 
inadequate SNAP (formerly food stamps) benefits, since the mother's 
unemployment benefits had run out. Joey required ten days of intensive 
hospital care costing thousands of dollars. Even now at seven months 
old, he is just twelve pounds and not yet able to sit up. This child is 
only one of many that our clinic has treated in the past few months 
whose very survival is literally threatened by the current economic 
situation. While not a sick as Joey, many more suffer impairments of 
their health and their developmental potential. In 2008, the referral 
rate to the Grow Clinic at Boston Medical Center was up 12% over the 
previous year.
    In case my colleagues on the panel tell you that these are mere 
anecdotes, my written testimony includes many statistics my Children's 
HealthWatch colleagues and I and many other research groups have 
gathered, which show that even a mildly uncertain or inadequate supply 
of nutritious food, known as food insecurity, even without physical 
evidence of underweight, is an important risk for children's poor 
physical and mental health, hospitalizations, developmental delay, and 
depressed academic performance.
    I can tell you what happens to my patients and I can tell you what 
I have found in my research, but in order to speak to you about how the 
recession plays into young children's health, I would like to 
acknowledge my colleague, Dr. John T. Cook, who is an economist and 
demographer. He is much better able to explain than I the economic 
causes of pediatric tragedies we observe and also the economic 
implications of the excellent SNAP (formerly the Food Stamp Program) 
provisions in the stimulus bill as a good prescription for improved 
prevention and treatment of food insecurity. My colleague on the panel, 
Ms. Sharon Parrott, can explain other child friendly economic measures 
to you like improving the Child Tax Credit.
    The most recent preliminary data we have from the soon-to-be-named 
Children's HealthWatch database shows that rates of food insecurity 
among families with very young children increased by 38% in the first 
half of 2008 compared to the same period in 2007. While these findings 
require further analysis, they are not hard to explain in light of the 
economic downturn. Even though there was an October cost of living 
adjustment in SNAP, benefits have not kept pace with food cost 
inflation. I have often spoken of SNAP benefits as `subtherapeutic'--
like not giving enough antibiotics. They are an essential medicine but 
not enough to cure the illness. As you know, SNAP benefits are based on 
the Thrifty Food Plan, but the quality and quantity of medicine that 
people can realistically purchase is usually insufficient for the need. 
We have been forced in our hospital to establish a food pharmacy that 
dispenses food on prescription from medical providers because so many 
of our patients, of all ages, were unable to meet medical 
recommendations for their diets. Over and over we hear that by the 
middle of the month, no matter how carefully families try to budget, 
their SNAP benefits have run out. Despite this, SNAP is not only an 
effective and efficient program but also essential to low-income's 
children's good health. Children's HealthWatch has found that young 
children and families who receive SNAP benefits are 25% less likely to 
be food insecure than those whose families do not receive them. Food 
insecure young children are 90% more like than other poor children to 
be in poor health and 31% more like to have been hospitalized in early 
life
    From research my colleagues Drs. Cook and Chilton conducted in 
Boston and Philadelphia families' challenges with affording food have a 
very simple explanation outlined in detail in the report entitled 
``Coming Up Short,'' which I submit for the record. As this graph 
shows, even if a family of two parents and two children receives the 
maximum SNAP benefit of $608/month, they are not able to purchase the 
Thrifty Food Plan in either city. The problem is compounded by recent 
runaway food costs. The proposed increase in SNAP benefits in the House 
stimulus bill is a key step in the right direction toward closing the 
gap and we strongly support the House's proposed investment of an 
additional $20 billion in the program. However, at some point we must 
recognize that even these excellent improvements leave families in 
these cities more than $150 short each month in the amount needed to 
purchase what the government considers a `minimally adequate diet' in 
line with the most recent nutritional science
    My colleagues and I are not the only ones who have noted the 
struggles families face in providing food for their children. National 
surveys which are current only up through 2007, notably before the 
current recession, also monitor food insecurity by using a scale 
composed of 18 questions. These show that in 2007, even before the 
recession and high inflation in food costs, 11% of all American adults 
and 17% of all children under 18 were ``food insecure'' or lacked 
consistent access to sufficient food for healthy lives. From December 
2006 to December 2007 the total number of children in households that 
had ``very low food security among children'' (which USDA/Economic 
Research Service used to refer to as ``food insecurity with severe 
hunger'') increased by over 60%. In households with at least one child 
younger than 6 years of age, the number more than doubled so that well 
more than a quarter million (292,000) are regularly missing meals. For 
your interest we have appended a chart for the members of the Committee 
showing the 2007 rates of household food insecurity in your states, 
with specific data about the youngest children in the states where we 
conduct Children's HealthWatch research. In our data through June 2008, 
food insecurity among families with infants and toddlers under age 36 
months ranges up to 34%. Unfortunately state-level child food 
insecurity rates are not reported by the government and there are not 
yet state-level estimates from government data more recent than 2005.
    You may ask how we can believe that there is so much food 
insecurity and nutritional deficit when there is also so much obesity. 
The impact of food insecurity, like many biological insults, varies 
with the developmental stage in which it occurs, with increased low-
birthweight and underweight in young children and, in some studies, 
increased obesity in elementary school children and adult women. This 
is a well-described phenomenon known as ``the nutrition paradox'' that 
is seen around the world. As the Director General of WHO, Dr. Margaret 
Chan stated, ``The cheap foods that make adults fat starve children of 
absolutely essential nutrients. Children who do not receive protein and 
other nutrients during early development are damaged for the rest of 
their lives.'' (www.who.int/dg/speeches/2008/20081024/en/index.html) As 
this slide shows, when parents' food dollars run short it is not 
irrational for them to keep children's stomachs feeling full with 
sugary carbonated beverages although they know milk is healthier. Thus 
it is not uncommon to find, as in another family like that of a 12 
pound ten month old I just treated, an obese older child and a severely 
malnourished infant--both of whom have been living primarily off French 
fries.
    I know that you are in the midst of determining the budget for this 
year's reauthorization of the Child Nutrition Programs, which also 
protect children's health and development from the womb through high 
school graduation. These extraordinarily successful, cost-effective 
programs play a critical role in helping children, especially those in 
low-income families, achieve access to quality nutrition, child care, 
educational and enrichment activities while improving their overall 
health, development, and school achievement. Though my focus is 
specifically on our youngest children, they are, of course, members of 
families and have older siblings. I see how children who participate in 
school meals, summer food programs and after-school snack grow and 
thrive in a way that the children who do not receive them cannot. Mr. 
Chairman, I would like to submit for the records the Child Nutrition 
Forum's Statement of Principles, signed by my organization as well as 
hundreds of other local, state, and national organizations. Children's 
HealthWatch, and other research groups have identified positive health 
and developmental effects of WIC and school meals and child care 
feeding, but as with food stamps, to assure quality and wide 
availability of these medicines to the increasing number of low income 
children who need them in this current economy, significant new funding 
will be necessary.
    Since I had the opportunity to address you before, there has also 
been a lot of new research both by our group and by other investigators 
which bears on your deliberations as you consider what should make up 
the crucial components of the current budget and stimulus plan. I would 
like to submit for the record a scientific summary of the impact of 
food insecurity recently published in the Annals of the New York 
Academy of Sciences and a policy-focused report, entitled ``Nourishing 
Development.'' Developmental risk means slow or unusual development in 
speaking, moving, or behavior and increases the likelihood that 
children will have later problems with learning, attention and/or 
social interactions. We have shown that even after considering multiple 
background characteristics food-insecure young children are 76% percent 
more likely to be at developmental risk than similar children who are 
food secure. Underweight babies and toddlers are 166% more likely to be 
at developmental risk as compared to normal-weight babies and toddlers. 
We know that the developmental effects of poor nutrition in early 
childhood persist long after the acute nutritional deprivation has been 
treated. Such children are neither ready to learn in the near term nor 
ready to earn in adulthood.
    This is not a new epidemic of nutritional deprivation, ill health 
and impaired learning, but it is one that has become more virulent in 
the past two years, and I suspect, more widespread. Fortunately, we 
also have medicines that can treat it. Among these are first of all 
adequate incomes for all Americans, but pending achievement of this 
goal, targeted nutritional programs such as SNAP and WIC are essential. 
You have heard over and over that Mark Zandi of Moody's Economy.com has 
noted that $1 in food stamps generates $1.73 in increased economic 
activity--at 73%, a return on investment guaranteed to be higher than 
will be received on any other stimulus investment, but that is only the 
short-term story. I would like to submit as part of my written 
testimony the Children's HealthWatch and FRAC report commissioned by 
the Pew Charitable Trusts/Partnership for America's Economic Success, 
``Reading, Writing and Hungry,'' which includes extensive calculations 
showing that increasing all food insecure children's SNAP benefits to 
the yearly maximum is not only humane but cost-effective, both in the 
short and long term. We know the amount food insecurity can be 
decreased or mitigated by SNAP likely will be reflected in children's 
better health, fewer hospitalizations, less need for special education, 
and fewer behavioral and mental health problems. For example, as I have 
noted, our research shows that SNAP reduces food insecurity by 
approximately 25%. If every food insecure child received the current 
maximum monthly allotment of $176 per person in food stamps, the annual 
cost to the taxpayer would be $2,112 per food insecure child. We have 
estimated that if all food insecure, eligible children received SNAP 
benefits, the costs for hospitalizations would be reduced by $3500 per 
food-insecure child per year. A similar calculation can be made for 
special education costs. Preventive programs such as WIC and SNAP are 
substantially less expensive than acute treatment of food insecurity's 
negative consequences, even accounting for the fact that those negative 
consequences will only manifest in a portion of food-insecure children. 
Food assistance programs reduce, but cannot eliminate food insecurity; 
thus, other measures to improve access and affordability of food in 
low-income communities are needed.
    I know from listening to the news that there is much discussion of 
entities that ``are too big to fail,'' but I would suggest to you that 
our children should be considered ``too important to fail'' since their 
whole life trajectories are being set today and cannot wait until 
tomorrow. Thus investment in the health and nutrition of our children 
will not only have short-term economic benefits in terms of decreased 
healthcare and special education costs, but in long-term benefits in a 
more productive and competitive workforce. Not all economic 
infrastructure development is done with a shovel!
    Finally, I would like to bring all these complex numbers back to 
where I see them in the lives of young children. A few weeks ago I 
walked into an exam room and there was a three year old sitting at the 
toddler table eagerly consuming graham crackers and milk that we always 
provide for our young visitors. She looked up at me and said, ``Dr. 
Fwank, this morning my stomach hurted me.'' Of course, I immediately 
went on the alert and began to run in my head the differential of 
hurting stomachs in three year olds. I knew it wasn't appendicitis 
because children with appendicitis have no appetite, but was it this or 
was it that. The mother was watching my face and before I could start 
drawing blood and collecting urine, she looked at me and said, 
``Doctor, it was just the hunger that was paining her, and she'll be 
okay now.'' Hunger hurts and children tell us so. I ask you to do what 
you can to relieve their pain, not only because doing so will stimulate 
the country's economy in the short- and long-term, but because it is 
the right thing to do for our children today, when they are hungry.

    [Additional materials submitted by Dr. Frank follow:]

             Child Nutrition Forum Statement of Principles

    Congress has a unique opportunity in the upcoming reauthorization 
of the child nutrition programs to improve access, meal quality and 
nutrition for millions of children, particularly low-income children in 
child care (the Child and Adult Care Food Program--CACFP), in school 
(breakfast and lunch programs), during out-of-school time (afterschool, 
on weekends and during the summer), and at home (the WIC Program). 
Thousands of diverse national, state and local organizations are 
committed to a reauthorization bill that has a bold vision to eliminate 
child hunger. These organizations are now joined by a President-elect 
who during the campaign has set the goal of ending child hunger by 
2015. To that end, these organizations are committed to passage of a 
strong child nutrition reauthorization bill in 2009.
    The extraordinarily successful, cost-effective child nutrition 
programs play a critical role in helping children, especially those in 
low-income families, achieve access to quality nutrition, child care, 
educational and enrichment activities while improving their overall 
health, development, and school achievement. In addition, the adult 
component of CACFP provides needed nutrition assistance to elderly and 
impaired adults. However, federal support for these programs has not 
always kept pace with children's need for these programs, food cost 
inflation, the costs of delivering services, or increased scientific 
knowledge.
    A well-conceived, adequately funded reauthorization bill can reduce 
hunger and food insecurity in America, help reduce childhood overweight 
and obesity, improve child nutrition and health, and enhance child 
development and school readiness. To this end we call on the 
Administration and Congress to enact a reauthorization bill that:

        <bullet> assures and strengthens program access and supports 
        participation by underserved children and communities;
        <bullet> enhances nutrition quality and provides adequate meal 
        reimbursements; and
        <bullet> modernizes technology and simplifies program 
        administration and operation.

    A substantial investment of new funding must be included in the 
Federal budget to achieve these goals. Without new program investments, 
it will be impossible for Congress to build upon the successes of the 
2004 reauthorization. With enhanced Federal support, priorities for the 
2009 Child Nutrition reauthorization should include:
i. improving access to nutritious foods in schools, child care centers 
and homes, in afterschool programs, on weekends, during the summer, and 
                              in the home
    School Meal Programs: Numerous studies document the positive effect 
school breakfast has on reducing hunger and improving nutrition, 
classroom behavior, test scores, grades, and school attendance. Through 
expansion of breakfast programs, including ``universal'' and in-
classroom programs in all low-income areas, all children can receive 
breakfast at no charge to ensure that many more of them begin the day 
with the nutrition they need to succeed. Federal funding for breakfast 
commodities, currently only available to the school lunch program, also 
would support efforts to provide nutritious breakfasts to more 
children.
    In addition, under the current school meals fee structure, many 
students from working poor families cannot afford the reduced-price 
meal charge. Free meal eligibility should be expanded so that children 
from households with incomes up to 185 percent of the national poverty 
line can receive meals at no charge.
    Child Care and Out-of-School Time Programs: Through CACFP, summer 
food and school meals programs, providers offer meals and snacks, 
combined with enriching recreational and educational out-of-school time 
activities, to preschoolers and to school-aged children after school 
and in the summer. CACFP provides essential nutrition and monitoring of 
care for young children in child care centers and family child care 
homes. Current area eligibility guidelines for family child care homes 
and afterschool and summer programs are inconsistent with other federal 
programs and leave many low-income families without access to the 
nutrition supports, especially in rural areas. Eligibility guidelines 
and the reimbursement structure need to be broadened to serve more 
children. In addition, suppers should be made available nationwide 
through afterschool programs in low-income areas to provide food, 
supervision, and educational and enrichment activities as more parents 
work and commute long hours. Reauthorization should also include 
strategies and resources to provide more nutrition assistance for 
children vulnerable to hunger on weekends and when schools are not in 
session. As programs expand to address the needs of participants, 
appropriate training and technical assistance also will be necessary to 
ensure meal quality and effectiveness.
    WIC provides low-income at-risk pregnant and postpartum mothers and 
young children with critical nutrition services, health and social 
service referrals, and culturally appropriate nutritious foods that 
contribute to their overall health and well-being. Assuring access for 
all eligible families contributes to healthy pregnancies, improved 
birth outcomes, positive impacts on the incidence of childhood 
overweight and obesity, improved readiness for school, and reduced 
health care costs. As a discretionary program, it is critical for 
Congress to support WIC's current eligibility rules and nutritional 
support so that infants and young children continue to experience the 
full complement of WIC's health benefits.
  ii. enhancing the nutritional environment to promote healthy eating 
                     habits for women and children
    Child nutrition programs play a critical role in addressing one of 
our nation's most serious public health concerns--childhood obesity and 
related health problems. As food costs rise, families, schools and 
child care, afterschool and summer food providers struggle to provide 
healthy meals for children.
    National nutrition standards, consistent with the Dietary 
Guidelines, should be established for foods and beverages sold outside 
of the school meals programs. USDA should assist state and local school 
food service programs to work toward a consistent national 
interpretation of the most recent Dietary Guidelines for Americans 
while it completes the regulatory process for its new school meal 
standards. Improved nutritional health for our children can be achieved 
by increasing meal reimbursements to help schools, sponsors and 
providers improve meals and snacks and increasing children's access to 
fruits and vegetables in all forms (including those sourced from 
regional farms), whole grains and low-fat milk and reduced-fat dairy 
products.
    The success of the WIC program in improving child health and 
nutrition outcomes is well-documented. Retaining current WIC 
eligibility rules and nutrition support is critical to promoting that 
success. In addition, Congress has an opportunity to further contribute 
to WIC's success by preserving the scientific basis for the WIC food 
package and ensuring that the recommendations of the Institute of 
Medicine (IOM) are fully implemented. To that end, Congress should 
direct USDA to provide the full complement of foods recommended by the 
IOM for the new WIC food packages including yogurt and the full amount 
of fruit and vegetables the IOM determined was necessary for 
nutritionally sound WIC food packages. Moreover, Congress should 
refrain from dictating the addition of any foods, or increases in the 
amounts of foods, beyond the specific recommendations of the IOM.
    Nutrition education funding for all child nutrition programs also 
will provide children at all stages of growth and development with the 
skills necessary to make lifelong healthy choices. Promoting and 
teaching healthy eating is essential to addressing childhood obesity 
and other diet-related health problems. Congress supported nutrition 
education and promotion by authorizing the creation of a USDA Team 
Nutrition Network in the 2004 Child Nutrition Reauthorization. Now, 
funds should be appropriated to carry out those provisions.
iii. modernizing and streamlining program operations to improve program 
                        integrity and efficiency
    Across all programs, steps should be taken to streamline program 
operations, allow more cross program certification, increase 
flexibility, and maximize the use of technology and innovation to 
reduce barriers to eligible families and children and to reduce the 
administrative burden for service providers.
    Recent congressional efforts to ease the paperwork burdens in the 
Summer Food Service Program have begun to attract more sponsors and 
children to this underutilized program. Additional resources should be 
available in areas with access barriers (e.g. transportation problems). 
To improve the accuracy of the school meals programs without impeding 
program access or overly burdening school personnel, Congress should 
also strengthen and expand direct certification for school meals 
(enrollment based on data matching) and expand options that eliminate 
or reduce paper applications (electronic applications and alternative 
data collection systems, e.g., use of neighborhood or district-wide 
census data).
    Growth in the WIC Program requires policy makers to expand their 
commitment to technology enhancements--management information systems 
that meet core function needs and are Electronic Benefit Transfer-
ready--making it easier for mothers and young children to access WIC 
foods, protect program integrity and achieve economies and efficiencies 
in the delivery of services.
                              conclusion:
    In 1946, Congress passed the National School Lunch Act as a 
``measure of national security, to safeguard the health and well-being 
of the Nation's children and to encourage the domestic consumption of 
nutritious agricultural commodities.'' Since then, Congress has 
improved the child nutrition and WIC programs to better serve children 
and families and adjust to changes in our families, workplaces, schools 
and communities. The upcoming child nutrition reauthorization provides 
an opportunity to build on this strong tradition and to ensure the 
continued health and well-being of our nation's most vulnerable 
population--our children.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Spratt. Dr. Frank, thank you very much for your 
compassion and very thorough testimony. Your article from 
Charitable Trusts/Partnership for America's Economic Success, 
``Reading, Writing and Hungry,'' without objection will be made 
part of the record.
    [The information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Spratt. Our next witness today is Sheriff Leon 
Lott. Sheriff, thank you for coming. We look forward to your 
testimony.

      STATEMENT OF LEON LOTT, SHERIFF, RICHLAND COUNTY, SC

    Mr. Lott. Thank you. Mr. Chairman, Members of the 
Committee, thank you for the opportunity to testify. I am the 
Sheriff of Richland County, which is in Columbia, South 
Carolina. It is the largest Sheriff's department in the State 
of South Carolina. I am also the past President of the South 
Carolina Law Enforcement Officers Association, and a member of 
Fight Crime: Invest in Kids, a national bipartisan anti-crime 
organization of 4,500 sheriffs, police chiefs, prosecutors and 
victims around the Nation.
    My colleagues and I in law enforcement know that dangerous 
criminals must be put away. But we also have seen that 
handcuffs and bars alone will not reduce our community's crime 
problem. What we know from our experience, and the research 
backs it up, is that targeted investments in our children can 
give them a better start in life so they don't turn to gangs, 
drugs, and crime. High quality early care and education for at-
risk kids can reduce the risks of later crime.
    At-risk kids in Chicago left out of the government-funded 
child/parent center programs were 70 percent more likely to be 
arrested for a violent crime by age 18, according to a study 
published in the Journal of the American Medical Association.
    Head Start is a federally funded pre-kindergarten program 
for kids of poverty at a cost of $8,000 per child. Research on 
the short-term impacts of Headstart has often demonstrated only 
modest effects. However, given the disadvantages that many poor 
children face, even these modest improvements are meaningful.
    For example, a national randomized control trial of 
Headstart showed that Headstart cut achievement gap nearly in 
half of pre-reading skills between Headstart children and a 
national average for all 3 and 4 years old. Far more important 
is that Headstart has had a meaningful impact on children's 
lives in the long term.
    For example, one national study found that Headstart 
increased high school graduations by 7 percent for children in 
the program compared to their siblings not in the program, but 
in other care, and decreased crime by 8.5 percent. Headstart 
already incorporates most of the key quality features, such as 
appropriate class size and teacher/student ratios, 
comprehensive and age appropriate early learning standards, 
related services such as health referrals and parent coaching. 
Under the recent Headstart reauthorization bill, a portion of 
all increased investments in this program will be dedicated to 
quality improvements which will make the program even stronger, 
such as require more teachers to have at least a Bachelor's 
Degree and enhanced curriculum standards. And high quality 
early care and education for at risk kids can save $16 for 
every dollar spent, including more than $11 in crime savings.
    These programs work, but only about half of the eligible 
poor kids in this country are served by Headstart. Fewer than 
five in 100 eligible infants and toddlers are in early 
Headstart. And only seven out of 100 kids in eligible low-
income families get childcare assistance. With the economic 
recession more kids are eligible for these programs but unable 
to access them, and States are cutting back.
    Early childhood care and funding, education funding, gives 
teachers and staff jobs today, it helps today's parents go to 
work, and invest in kids for a better and more crime free 
tomorrow.
    We understand the final version of the American Recovery 
Investment Act includes investment of $4 billion for Headstart, 
Early Headstart and the Childcare and Development Block Grant. 
This will create 60,000 jobs, allow over 110,000 more children 
to participate in Headstart and provide childcare assistance 
for 300,000 children. On behalf of thousands of law enforcement 
leaders around the Nation, I urge Congress to move the final 
passage of Headstart, Early Headstart, and childcare funding in 
the economic recovery package.
    I also urge this committee to ensure that the fiscal year 
2010 budget resolution expressly provides room for the 
increased investment of $10 billion for quality early care and 
education to which President Obama has made a strong 
commitment. The needs are clear. The results of high quality 
programs are clear. Let us work to be able to keep 
strengthening the quality of Federal programs and meeting more 
of the needs. Every day we are paying a far greater cost of our 
failure to have met these needs years ago.
    I saw some of these failures last Friday. I was the MC for 
a beauty pageant at the State prison for juvenile girls. These 
were seven years aged 15 to 17, some white, some black, who 
were in prison for charges ranging from armed robbery to drug 
offenses. Almost all of them shared a history of child abuse, 
single parent family, and truancy. None of the girls had been 
in preschool. The pageant winner was one of seven children of 
her mother by multiple fathers, and her father who has had 
children with multiple mothers is now in jail.
    Kids don't choose their parents, but we as a Nation can 
choose to invest in what works to give these kids a chance in 
life. Otherwise they will pay and we will pay.
    My more than 30 years of experience in law enforcement 
tells me, and my 4,500 colleagues nationwide concur, that we 
can't afford not to make this crime fighting investment in kids 
now.
    Mr. Chairman, thank you.
    [The prepared statement of Leon Lott follows:]

     Prepared Statement of Leon Lott, Sheriff, Richland County, SC

    Mr. Chairman and Members of the House Budget Committee, thank you 
for the opportunity to appear before you today. My name is Leon Lott 
and, for 12 years, I have been the Sheriff of Richland County, South 
Carolina--the largest Sheriff's Department in South Carolina. I began 
my law enforcement career as a patrol officer 34 years ago, and have 
been Police Chief for a very small, rural town in our state. I have 
also served as the President of the South Carolina Law Enforcement 
Officers' Association. For ten years, I have been a member of Fight 
Crime: Invest in Kids, a national, bi-partisan, anticrime organization 
of 4,500 sheriffs, police chiefs, prosecutors and victims of violence 
around the nation, dedicated to reducing crime through proven-effective 
investments that give kids the right start in life.
    My colleagues and I in law enforcement know that dangerous 
criminals must be put away where they can do no harm. I have locked up 
more than my share over the years, particularly--in recent years--for 
gang and drug offenses. But I have also seen that handcuffs and bars, 
alone, will not reduce our communities' crime problems. Putting a gang 
member into a prison cell will not bring a teenager he murdered back 
into his mother's arms.
    What we know from our experience, the research backs up: targeted 
investments in our children can give them a better start in life--so 
that they don't turn to gangs, drugs, and crime.
    Mr. Chairman, the members of Fight Crime: Invest in Kids appreciate 
the difficult job facing Congress and, in particular, this Budget 
Committee in determining how best to allocate scarce resources in a 
time of enormous financial challenges facing this country. My message 
today is a simple one: Take the long view. Recognize that a dollar 
spent today on effective and proven programs serving at-risk children 
and their families will save many times the programs' cost in the 
longer term. Our nation must not shortchange the very programs that 
have been proven to work. Our families and communities need these 
programs now more than ever, and our future safety depends on them.
                   early childhood educaton and care
    The early years of life are crucial to a child's brain development. 
The National Research Council has found that 90 percent of brain 
development occurs before the age of five. High-quality early care and 
education for at-risk kids during those critical early years not only 
can help close the achievement gap; it can also reduce the risk of 
later crime. In fact, at-risk kids in Chicago left out of the 
government-funded Child-Parent Center programs were 70 percent more 
likely to be arrested for a violent crime by age 18, according to a 
study published in the Journal of the American Medical Association. The 
study of Chicago's Child Parent Centers, which served 100,000 three- 
and four year-olds, also found that those left out were 67 percent more 
likely to be held back a grade in school, and 71 percent more likely to 
have been placed in special education. In another study, at-risk kids 
who were left out of high quality High/Scope Perry Preschool program 
were five times more likely to be chronic offenders with five or more 
arrests by age 27. By age 40, those who did not attend the Perry 
Preschool program were more than twice as likely to become career 
offenders with more than 10 arrests, and twice as likely to be arrested 
for violent crimes. Further, children left out of the program were four 
times more likely to be arrested for drug felonies by age 40, and seven 
times more likely to be arrested for possession of dangerous drugs. 
Children who did participate in the Perry Preschool program were 31 
percent more likely to graduate from high school.
    Head Start is the federally-funded national pre-kindergarten 
program for low-income families that provides early education services 
for children ages 3 to 5, at a cost of about $8,000 per child. Research 
on the short-term impacts of Head Start has often demonstrated only 
modest effects. However, given the disadvantages that many poor 
children face, even these modest improvements are meaningful. For 
example, a national randomized control trial of Head Start showed that 
Head Start cut the achievement gap nearly in half for pre-reading 
skills between Head Start children and the national average for all 3- 
and 4-year-olds. So Head Start helped low-income children make real 
strides in catching up academically to their more advantaged peers.
    Even more significant than short-term academic progress, Head Start 
has had meaningful impacts on children's lives in the long term. 
Several studies have demonstrated Head Start's long-lasting effects. 
These have included increased high school graduation rates, reduced 
crime, decreased grade retention and decreased special education 
placements. For example, one national study found that Head Start 
increased high school graduation rates by 7 percent for children in the 
program compared to their siblings not in the program but in other 
care, and decreased crime by 8.5 percent.
    Head Start is already an effective program, and incorporates most 
of the key features of high-quality early education programs proven to 
cut crime, such as appropriate class-size and teacher-student ratios, 
comprehensive and age-appropriate early learning standards, related 
services (including health referrals), and parent involvement and 
coaching. Further, under the recent Head Start reauthorization bill 
(enacted a year ago, but not yet fully funded), a portion of all 
increased investments in the program will be dedicated to quality 
improvements which would make the program even stronger, such as 
increased teacher qualifications so that more teachers have at least 
Bachelor's Degrees, and enhanced curriculum standards. Currently, Head 
Start teachers are earning half of what public school teachers earn, so 
it's hard to attract and retain more highly-qualified teachers; 
increased quality improvement funding, once it's appropriated, will 
really help.
    Early Head Start was created in 1994, in response to research 
indicating the developmental importance of the first three years in a 
child's life. Early Head Start serves both pregnant women and children 
ages birth to 3, providing guidance, information, parenting support, 
and direct services. Early Head Start provides services through center-
based, home-based, and combination program options.
    As with Head Start, the research shows that Early Head Start is 
effective. The program was evaluated through a randomized study of over 
3,000 families participating in 17 Early Head Start programs across the 
country. Three-year-olds who had participated in Early Head Start, 
compared to their peers who did not, had higher levels of cognitive and 
language development, better attention to play, and lower levels of 
aggressive behavior. Parents who participated in the program, compared 
with the control group, demonstrated more emotional supportiveness to 
their children, provided higher levels of language and learning 
stimulation, and read to their children more. The programs that showed 
the strongest positive effects were those that implemented all of the 
federal program performance standards early and those that combined 
home visiting and center-based services.
    While Early Head Start has not been in existence long enough to 
track long-term outcomes, the implications are clear. The finding that 
participation in Early Head Start results in lower levels of aggressive 
behavior is especially significant; sixty percent of children with high 
levels of disruptive, aggressive behaviors in early childhood will 
manifest high levels of antisocial and delinquent behavior later in 
life.
    North Carolina's Smart Start is a nationally-recognized initiative 
designed to both help working parents pay for early child care and 
improve the quality of care by providing educational opportunities, 
resources, and educational materials for teachers. Low-income children 
who were not enrolled in early childhood education centers with North 
Carolina's Smart Start quality improvement assistance were twice as 
likely to have behavior problems such as aggressive acts and poor 
temper control, anxiety, and hyperactivity in kindergarten.
    Based on all this evidence of the impact of quality early childhood 
care and education for at-risk kids, I'm convinced that if we are 
willing to invest now, our communities will save money. But don't just 
listen to me.
    An analysis by Arthur Rolnick of the Federal Reserve Bank of 
Minneapolis showed that the High/Scope Perry Preschool program provided 
an annual return on investment of 16 percent, after adjusting for 
inflation. That's a lot better than anyone's 401k performed last year. 
The high quality preschool program saved $16 for every dollar spent 
(including more than $11 in crime savings). If you invest $1,000 in a 
program such as Perry Preschool, you get a return in benefits of about 
$19,000 back in 20 years. These programs work.
    Regrettably, state and federal investments lag far behind the need. 
Only about half of eligible poor kids in this country are served by 
Head Start. Fewer than five in 100 of eligible infants and toddlers are 
in Early Head Start. And we don't do much better with the Child Care 
and Development Block Grant program, helping only seven out of 100 kids 
in eligible low income families. I don't have to tell you that funding 
has been stagnant over the past several years--last year, 150,000 fewer 
kids received child care assistance than in 2000. The economic 
recession has further compounded the problem--more kids are eligible 
for these programs and in need of these services, but unable to access 
them, and states are cutting back their early care and education 
investments, due to their budget shortfalls.
    While we, as a nation, have just begun to recognize the crucial 
value of early care and education in generating long-term returns on 
investment, we seldom view early care and education as a strategy for 
short-term economic growth. However, in the short term, investing in 
the early-education sector will support jobs for thousands of low-
income women and men, many of whom have their own children to support. 
There are over 2 million Americans working in the early education 
workforce. Early childhood care and education are strong job-creation 
vehicles with a demonstrated economic multiplier effect in the short 
term. In fact, for every two new jobs created in the childcare sector, 
an additional job is created in the rest of the economy. In addition, 
early care and education spending goes primarily toward wages. For 
example, at least 75% of Head Start funding is spent on staff 
compensation. Because the workforce is entirely within the U.S., and 
predominantly low-wage, those salaries will quickly be spent in the 
workers' local economies.
    In addition, investing in early care and education also helps 
financially struggling young families who would either have to pay 
budget-busting amounts of tuition for childcare, quit their jobs, or 
leave their children in dangerous circumstances. People who lose their 
jobs often end child care arrangements, and need help to pay for child 
care lest they be stuck in a vicious cycle, unable to look for or 
accept a job because they don't have the money they need to pay for 
child care. With 60% of women and 90% of men with children under age 6 
employed and an annual cost of $16,000 a year for full-time care for 
two young children, struggling families can't afford this on their own.
    The House-passed version of H.R. 1, the American Recovery and 
Reinvestment Act, includes an investment of $2.1 billion for Head Start 
and Early Head Start, as well as $2 billion for the Child Care and 
Development Block Grant, which will create 60,000 jobs, allow over 
110,000 more children to participate in Head Start, and provide child 
care assistance for 300,000 children. In the face of increasing 
unemployment and poverty rates, declining incomes, and the country 
experiencing an economic recession--and in light of the many short-term 
and long-term economic benefits, in addition to crime reduction 
benefits--we can't afford not to invest more now in federal Head Start 
and child care programs.
    Therefore, on behalf of thousands of law enforcement leaders around 
the nation, I urge Congress to move to final passage that Head Start, 
Early Head Start and Child Care and Development Block Grant funding in 
the House-passed American Recovery and Reinvestment Act. I also urge 
this Committee to ensure that the fiscal year 2010 Budget Resolution 
expressly provides room for the increased investment of $10 billion for 
quality early care and education to which President Obama has made a 
strong commitment.
    If we invest now in these programs that work, my deputies and their 
successors will face fewer violent 18-yearolds and 27-year-old hardened 
criminals.
        child abuse and neglect prevention through home visiting
    Each year, an estimated 2.7 million children in America are abused 
or neglected, including 900,000 cases that were reported and able to be 
confirmed by overburdened state child protection systems. More than 
1,400 children die from abuse or neglect each year, and over half of 
them were previously unknown to Child Protective Services. Children who 
survive abuse or neglect carry the emotional scars for life. The best 
available research indicates that, based on the confirmed cases of 
abuse and neglect in just one year, an additional 35,000 children will 
become violent criminals and 250 will become murderers as adults as a 
direct result of the abuse and neglect they endured. In other words, if 
we could somehow stop every instance of child abuse and neglect for one 
year, there would be 35,000 fewer violent criminals and 250 fewer 
murderers on our streets in later years.
    Fortunately, evidence-based, voluntary, home visiting programs can 
prevent child abuse and neglect and reduce later crime and violence. 
These programs help new parents learn skills to promote healthy child 
development and be better parents. For example, one program, the Nurse-
Family Partnership (NFP), randomly assigned interested at-risk pregnant 
women to receive visits by nurses starting before the birth of a first 
child and continuing until the child was age two. Rigorous research, 
originally published in the Journal of the American Medical 
Association, shows the program cut abuse and neglect among at-risk kids 
in half. In addition, children of mothers who received the coaching had 
60% fewer arrests by age 15 than the children of mothers who were not 
coached. The mothers' arrests were cut by 60%, as well. The research is 
clear--these programs work.
    Prevent Child Abuse America estimates that child abuse and neglect 
cost Americans $94 billion a year. Researchers with the Federal Reserve 
Bank of Minneapolis concluded that NFP produced an average of $5 in 
savings for every $1 invested, and produced more than $28,000 in net 
savings for every high-risk family enrolled in the program.
    Every year, over 600,000 low-income women in the U.S. become 
mothers for the first time. This means that, in the United States, 
there are 1.5 million low-income women who are pregnant or have a child 
under the age of two. These are the women who are eligible for NFP at 
any given time. Yet, the program is only able to serve about 20,000 
mothers annually, due to a lack of sufficient funding.
    Unlike in the early care and education area--for which Congress has 
created Head Start, Early Head Start, and Child Care funding streams--
there is NO authorized federal funding stream dedicated to addressing 
the need for quality, voluntary home visitation around the nation. 
President Obama has pledged to fully meet this unmet need; we urge 
Congress to take immediate steps to address the substantial unmet need 
in this area, through the enactment, this year, of two complementary 
bills:
    <bullet> the bi-partisan Education Begins At Home Act--to expand 
and improve evidence-based home visiting through federal funding for 
competitive grants from states to local programs; and
    <bullet> the bi-partisan Healthy Children and Families Act--to 
provide high-quality nurse home visitation as a reimbursable health-
related service option through Medicaid and the State Children's Health 
Insurance Program.
    If we help strengthen at-risk families, and help parents to do the 
tough job of parenting a little better, that will make a world of 
difference in keeping little kids safe from harm in their own homes, 
and keeping all of us safe when those little kids grow up.
    after school programs for the ``prime time for juvenile crime''
    I learned, as an officer on the streets, that the hours after 
school can be the riskiest for our young people. In the hour after the 
school bell rings, violent juvenile crime soars and the prime time for 
juvenile crime begins. The peak hours for such crime are from 3:00 to 
6:00 PM on school days. These are also the hours when children are most 
likely to become victims of crime, be in an automobile accident, smoke, 
drink alcohol, or use drugs.
    Fortunately, after-school programs that connect children to caring 
adults and provide constructive activities during these critical hours 
are among our tools for preventing crime. For example, a study compared 
five housing projects without Boys & Girls Clubs to five receiving new 
clubs. At the beginning, drug activity and vandalism were the same. But 
by the time the study ended, the projects without the programs had 50 
percent more vandalism and scored 37 percent worse on drug activity.
    More than 14 million children still lack adult supervision after 
school. President Obama has pledged to double funding for the 21st 
Century Community Learning Centers (21st CCLC) program--the federal 
government's principal after-school program investment. We urge 
Congress and this Committee to ensure that is a priority in the 2010 
budget.
                               conclusion
    One element of all of the evidence-based, proven-effective crime-
fighting approaches is crucial: HIGH QUALITY. You can only generate 
strong results through strong programs. As a long-time member of Fight 
Crime: Invest in Kids, I know that we do everything we can to support 
investments in programs that can reduce crime--and we do everything we 
can to make the programs of the highest quality, so they can get those 
crime-reduction results. And we're always up for new allies to work 
with on Capitol Hill to make that happen.
    So: the needs are clear. The results of high quality programs are 
clear. Let's work together to keep strengthening the quality of federal 
programs AND meeting more of the needs. Every day, we're paying the far 
greater costs of our failure to have met these needs years ago; I see 
those failures in the criminal cases my office deals with, day after 
day, year after year.
    And I saw some of those failures last Friday, when I was a ``Master 
of Ceremonies'' for a beauty pageant at the state's lockup for juvenile 
girls, ages 15-17. The seven girls in the pageant were in for charges 
ranging from armed robbery to drug offenses, and some were white and 
some were black. But some things almost all of them shared: a history 
of child abuse; a single-parent family; and a history of truancy. None 
of the girls had been in preschool. And here's the pageant winner: 
she's one of seven children of her mother (by multiple fathers); and 
her father, who has had children with multiple mothers, is now in jail.
    Kids don't choose their parents. But we, as a nation, can choose to 
invest in what works to give those kids a chance in life. Otherwise, 
they'll pay, and we'll all pay.
    My more than three decades of experience in law enforcement tell 
me--and my 4,500 colleagues nationwide concur--that we can't afford NOT 
to make these crime-fighting investments in kids NOW.
    Mr. Chairman, and Members of the Committee, thank you for this 
opportunity to testify. I would be happy to answer any questions.

    Chairman Spratt. Thank you, Sheriff Lott. Now, to round out 
the testimony is someone with an overview based on years of 
experience. Douglas Besharov is now the senior scholar to the 
AEI on matters of welfare and is also a professor at the 
University of Maryland School of Public Policy. We welcome your 
testimony, and thank you very much for coming.

  STATEMENT OF DOUGLAS J. BESHAROV, SENIOR SCHOLAR, AMERICAN 
                      ENTERPRISE INSTITUTE

    Mr. Besharov. Thank you very much, Mr. Spratt, Congressman 
Ryan, and members of the Committee. I was going to say it is a 
pleasure or an honor to be here, but as I tried to figure out 
what I would say that would be helpful to your deliberations it 
was just very difficult. It is clear that more spending is 
coming, large amounts of more spending, and there is an 
argument about that. I don't want to talk about how much more 
there should be or whatever.
    What I want to talk about is how I hope that Congress will 
think about that spending, and for that I don't think it 
matters whether you are in the majority or the minority. So I 
am going to try to make four points in the time I have here 
today, and in doing so, I want to emphasize that I realize 
these decisions are coming very fast and probably faster than 
your staffs can keep up with. And in fact my impression is a 
lot of these decisions are coming and being made in other 
places. But let me try it anyway. Four points I want to make.
    First, as every speaker here has emphasized, for an 
increasing number of Americans unemployment is up, poverty is 
up, incomes are down. That inevitably will mean an increase in 
spending on means tested programs. Whether it is food stamps or 
TANF or whatever, those programs are kind of cyclical. They are 
designed to increase when the economy goes south, and that is 
going to happen. Some of those programs are going to need 
additional cash just to meet their current eligibility rules. 
So that is going to happen, and that should be easily agreeable 
on all sides.
    But there is something else happening at the same time 
which is troubling to me as an outsider. And that is you can 
see on a number of programs a process of changing the 
eligibility rules and making more people eligible than the 
economic situation requires or suggests. Now, I think there is 
a reason for that, and I want to spend a minute on that, but I 
want to explain what I am talking about. Whether it is in TANF 
or WIC or some of the other programs, we are slowly raising the 
minimum income for eligibility. So it is not just that more 
people are eligible, people at higher incomes are becoming 
eligible for these programs or the small changes that are 
happening in the stimulus package and I am sure that will 
happen in other packages that move forward. In some programs 
that is appropriate and long overdue. In other programs I think 
it is inappropriate.
    TANF is a really good example I think of where we are in 
the process of unwinding welfare reform. But I want to explain 
why I think that is happening in case this train can slow down 
a little bit to do it the right way.
    What we heard today about the worsening condition for the 
lower and middle class is largely because the existing means 
tested safety net programs don't reach to the economic 
situation we are facing today, and that is largely housing 
costs and the ability to pay for housing. So what we are seeing 
is food stamps are being used as a way to fill the gap of a 
housing market problem or a rental market problem. And we are 
justifying changes in food stamps and Medicaid, and so forth, 
because of this underlying problem in housing. Short term that 
might work, long term my feel is that we will have ratcheted up 
eligibility for these means tested programs and it will be 
extremely difficult for the Congress to turn that around in 2 
years or 4 years if it chooses to do so.
    If I were being political, I would say you know this all 
happening now very fast, everybody wants it to happen. But this 
town and this country is really good at second-guessing what 
the politicians do 5 years later.
    My third point is that when you make these changes in 
programs, when you add new programs, do it in a way so that 
they can be undone or changed. The most striking thing about 
TARP is that we got $350 billion wrong. Thank goodness, I don't 
know what will happen, the next $300 billion or whatever we are 
going to spend a little differently. When we change social 
programs, it becomes extremely difficult to go back and say, 
you know, we didn't do that one right. Instead of using 
vouchers for food stamps let us think about cash. A lot of 
people would like cash than food stamps. That is almost 
impossible to do because of the vested interest around this 
program.
    Now, I am in effect speaking generalities here, but I am 
saying in effect as you make these changes ask what the exit 
strategy is, if you want to have one. Now some places you may 
not want an exit strategy. It may be perfectly appropriate to 
see major and long lasting changes in eligibility. And I think 
we will see that happen.
    The last point that I want to make, and I tried to make 
this in the New York Times over the weekend, most of the 
Members of Congress I think would like to see changes in 
certain programs. They might like to see No Child Left Behind 
change in one particular way or another, maybe have higher risk 
responsibility for teachers or maybe have more accountability. 
Or they might--I would like to see Headstart change so that 
instead of those modest results we have much larger results. 
The way it works, as far as I can tell, to get those changes in 
programs the reformers have to put money on the table. What is 
happening in too many programs now is we are putting the money 
on the table without changing the programs. And I guess there 
will be more money coming down. But $4 billion for the 
childcare program, that could use a little bit of reform. $2 to 
$3 billion for Headstart is only the beginning, with no 
requirement that the program improve its performance. This it 
seems to me is something where both sides ought to be able to 
fashion these packages to do two things at once. More money is 
going to go in, and that is what elections are about, the 
majority is the majority. But the money ought to be spent more 
wisely than it is currently being spent. And I think the only 
issue with that is the speed at which all this is happening. 
And I am not standing here saying slow it down, it is all going 
to happen. But if you have a chance do ask the question, well, 
as we are putting an extra billion dollars in this program what 
is the reform agenda from the left and the right, not just from 
right, what is the reform agenda that people from not AEI, 
Brookings, from academe have said should be in these programs, 
and consider it before locking in higher levels of spending or 
we will never be able to buy our way out of weak programs.
    Notice I didn't say defund the program. I said buy our way 
into better programs. And I hope that the Democratic majority 
will do that, if not this year, next year.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Douglas Besharov follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Spratt. Thank you very much, Mr. Besharov. Now, I 
am going to yield my time to Jim McGovern and allow you to ask 
questions, and we will come back to Mr. Ryan, and then we will 
come back and Allyson Schwartz is going to yield her time to 
Rosa DeLauro. A lot of Rosa's important position is the 
chairwoman of the Ag Subcommittee on Appropriations. Mr. 
McGovern.
    Mr. McGovern. Thank you, Mr. Chairman. Thank you all for 
your testimony. I appreciate it very much. I just want to point 
out a couple of things.
    We started at the beginning of this hearing with a chart 
showing that food stamp spending had increased. And Mr. 
Besharov, you said, I just want to repeat it, it is increased 
because the need has increased, there are more people who need 
help.
    Mr. Besharov. Sure.
    Mr. McGovern. And so it is not that people want to be 
reckless spenders who just kind of add more to the program for 
the sake of adding to a program; there are more people in this 
country who are hungry. It is that simple. And I would also 
add, and Dr. Frank pointed this out, that it is not just 
expanding the program. The dose may be inadequate. I mean the 
average food stamp benefit is about $3 a person per day. So 
even if housing costs were more reasonable, the fact is food 
costs have gone up for a whole bunch of reasons. Because of 
fuel, because of bad, you know, biofuels, corn ethanol stuff 
and droughts and everything together. The cost of milk has gone 
up, the cost of bread has gone up, the cost of eggs have gone 
up. And the need is not just amongst the poorest of the poor, 
the need is amongst a lot of working families. I mean you talk 
to people who run food banks, they are going to tell you the 
highest number of people who come in now are people who work 
for a living. And what we are doing here in the recovery and 
reinvestment package I should state is we are not kind of 
laying out long-term policies here. I mean this is a short-term 
emergency response to a real problem on a whole bunch of 
levels. We can argue whether it is the right response or not. 
But this is not a wholesale reform of any program. It is adding 
to an existing program basically to meet a need.
    I mean, from the way I look at it I would like to see us 
move to a policy where we don't need food stamps anymore, we 
don't need food banks anymore, you know, we don't need all 
these programs to provide these safety nets for people just to 
have enough to eat. We don't have to deal with any more stories 
like Dr. Frank talked about, you know, Joey coming in severely 
malnourished. I mean this is the United States of America. It 
is astounding to me that there were kids that show up to 
hospitals in the condition of Joey and that doesn't provoke 
more outrage here in our government.
    And we are speaking of reform. Here is something that I 
think is a problem and I think we are going to have to deal 
with. We are trying to respond to an immediate emergency right 
now where there are a lot of people in this country who are 
hungry. But one of the problems that we have from a government 
perspective is that a lot of the programs and initiatives that 
respond to hunger or food insecurity, or whatever we want to 
call it, fall under the jurisdiction of multiple agencies and 
departments, even under multiple committees here in Congress. 
It is not one hunger committee. We do food stamps in the 
agriculture bill and the farm bill, you got the child nutrition 
reauthorization bill under Ed and Labor. I mean, there is all 
these different pieces. And what I am concerned about is that 
in the long term we don't have a plan to end hunger. What is 
the plan to end hunger? How do we do this when we know we have 
got to make sure kids have enough to eat, we know we need the 
school lunch program and the breakfast program, we know we need 
to help our food banks, we know we need food stamps?
    It is a lot more than that. And I think there is a need in 
this government to have somebody empowered properly in the 
administration who has a responsibility to helping to 
coordinate a plan so that people know what the heck they are 
doing and so that we can judge whether or not we are making the 
progress that we also want to make, that every agency and every 
department and every program is actually working to its level 
best.
    And so as we--I mean, I would be curious to hear what 
people have to say about kind of a long-term strategy. I think 
we have the short-term emergency response that we are doing 
right now. But in the long term I think the goal needs to be to 
end hunger and end poverty, and hunger is the place to begin. 
How do you do it? How do we get the will to do it? I tell 
people all the time hunger is a political condition. We have 
all the tools, we know how to do it, this is not as difficult 
as solving peace in the Middle East, we know what we need to 
do. It is just we don't have the political will to either 
provide the funding necessary to deal with the current problem 
and we don't seem to have a long-term strategy.
    I don't think anybody can tell me right now that this is 
what we need to do to end hunger. So I would be curious to hear 
your thoughts about how we take this to the next level. I think 
the goal should be let us end hunger in America. That should be 
a quixotic idea we should be able to do. How do we do that? 
What do we need to do that we are not doing to be able to kind 
of come up with that strategy?
    Mr. Besharov. Well, I feel really uncomfortable giving my 
opinion about what the politics of this to this group. But I 
think what just happened is if you put X billion dollars into 
the program without asking for the changes that you just 
described, and we could be more specific but it almost doesn't 
matter, 2 years from now or 4 years from now you are not going 
to have the--unless things get worse, you are not going to have 
the money to say here is how we are going to grease the skids 
for reform.
    I am not saying you shouldn't have done it, but I am saying 
this is what is happening.
    In a different time, if you had put $5 billion on the table 
for food stamps and said, we are going to put this $5 billion 
on the table in return for reforms that we can all agree to--
some of them being the ones you describe, and I will mention a 
few--it would have been much better. My fear is that this is 
just going to be like George W. Bush when he did prescription 
drugs; he put whatever hundreds of billions of dollars on the 
table without asking for any changes in Medicare, and he lost 
his leverage to do anything later. And what I am afraid the 
Democratic Congress is going to do is lose its leverage 2 years 
from now to do the programs that you want to do to end hunger.
    Mr. McGovern. I think there is a difference, and that is 
that there are people showing up in emergency rooms who are 
malnourished today. I mean, unlike the prescription drug plan--
which, quite frankly, I didn't think was a good idea, and there 
is still an opportunity to fix it--right now, we have an 
emergency situation. People are hungry. I mean, not only do we 
have kids, we have elderly people showing up at hospitals who 
are taking their medication on an empty stomach because they 
can't afford the food.
    The issue is this: We do know that there are a lot of 
people out there who are eligible for food stamps who are not 
enrolled. So there are people who need the benefit, who will 
benefit from this increase. If we are going to get to the issue 
of reform, it is not just about fixing food stamps or making 
food stamps better, it is a holistic approach. I think that 
there needs to be a hunger czar or there needs to be somebody 
in the administration like a Rahm Emanuel, who will be for 
ending hunger, someone who will knock heads together, who has 
the support of the President of the United States to actually 
hold agencies and departments accountable, to coordinate a 
holistic strategy, because we don't have that strategy. We 
don't have the strategy to end poverty in this country. And you 
need a plan. You need to know where you are going. And I am 
just curious how we get there.
    Dr. Frank.
    Dr. Frank. Well, this is outside my area of expertise, but 
there is one smallest thing I can talk to you about from 
clinical experience, and another that I think Ms. Parrott can 
help you with in more detail.
    The smallest thing is, depending on school entry age, 
everybody ages out of WIC at five. And they may not get milk 
again for a year if they age out on September 2nd and they 
start school--if they turn five on September 2nd and can't get 
into kindergarten because you have to be five on September 1st. 
So that is a simple thing in a lack of continuity in a program.
    The other thing is the tremendous administrative burdens 
and burdens on applicants that comes from this terror that some 
child somewhere is going to get a muffin and a glass of milk 
that maybe their mother could have afforded that day. And I 
don't quite understand why that is such a big panic, but I 
understand that it is. For example, in Philadelphia, they have 
this great universal school meal program that doesn't bother to 
certify people individually. Now people say, you must certify 
people individually; that's going to cost them $800,000 a year. 
What a waste of money of a school department. And we don't have 
a one-stop shopping system, so you have to keep reapplying, re-
upping, redocumenting every X many months. And it is burdensome 
for families. It is also very burdensome for the people trying 
to work with them, as we sit there and say, okay, now, let's 
see, is this the time you have to reapply for your food stamps, 
your health insurance, your WIC? So somehow, overnight, they 
probably went from being desperately poor to being 
millionaires. So that is sort of just a from-the-trenches' 
view, but I wanted to just put those two things out there.
    I am sure Sharon can explain it better.
    Ms. Parrott. Thank you.
    I think this is a case where we have to walk and chew gum 
at the same time. We have to respond to this emergency, this 
crisis, where we have programs in place that can deliver 
efficient and effective aid to people who are really 
struggling. And I have to say, I take some issue with Mr. 
Besharov's sort of assumption that the provisions in the 
package expand eligibility when, in fact, if one looks at the 
food stamp changes, for example, they don't expand eligibility, 
they are providing increased benefits during this very 
difficult time.
    So I think we have to sort of sort out what the package 
does and what it doesn't do and note that what we can do right 
now is respond to a real crisis that people are facing. But 
that isn't all we need to do. And that is why I appreciate your 
question about, so how do we think about moving forward in the 
longer run? And there I would just say a couple of things.
    First of all, I think it is pretty clear that we do need a 
multi-pronged approach that thinks about people over the course 
of their lifetime. So as Sheriff Lott talked about, there are 
things we can do, invest in kids so that they are less likely 
to be poor as adults. And that is adequate nutrition. It is 
quality early education. It is K-12 that works. It is a college 
support system so that low-income kids can go to college. We 
know that particularly minority low-income kids are much less 
likely to go to college if they have to take out substantial 
loans than other students. So there is sort of a prevention in 
investing in kids so that they are more productive as adults 
and less likely to need help as adults.
    There is a piece of this that is about supporting low-
income working families. That is actually a piece that we have 
done better at in the last two decades. If you look 
historically at our safety net, you will see that, compared to 
20 years ago, we have more supports in place for working 
families. It is not to say it is enough. It is not to say there 
aren't holes, one of the biggest of which is help for child 
care expenses that are very high; they tend to come in the 
lifetime of a parent when they are fairly young, and they earn 
less. And unlike college, where people sort of save for a long 
time, if they have resources, to go to college, people when 
they are 14 don't start saving to put their kid in high-quality 
education at a young age. So there is a supporting work piece 
that is incredibly important, but it is an area where we have 
done better.
    And then there is, I think they are often much more 
difficult to talk about, but incredibly important, particularly 
when we talk about the children at the edge, the children that 
are having the most difficult times, that really don't have 
enough to eat, and those are the very poorest kids, the kids 
below half the poverty line, the kids where very often multiple 
things are going on in that family that lead to significant 
disadvantages. Often we have parents with disabilities. We have 
children with disabilities that limit parents' abilities to 
work. We have people who are out of work sometimes for a short 
period of time, sometimes for a longer period of time. And it 
is that part of the safety net that has gotten weaker over the 
last couple of decades. We lift a smaller share of kids out of 
deep poverty than we used to.
    Now, does that mean that we should get rid of welfare 
reform and we shouldn't be about work? Absolutely not. But it 
does mean that we have to recognize that we have a group of 
families that are quite poor, where parents have significant 
disadvantages. And those kids and those families grow up 
without things that all of us would want for our own kids.
    And so we have to think about how we have a safety net that 
is very focused on work, that is very focused on personal 
responsibility, but also provides that critical safety net so 
kids aren't growing up in deep poverty.
    Mr. McGovern. I appreciate those comments.
    I just want to say, finally, I want to make sure my 
colleagues get a chance to read this report that I insert into 
the record, ``The Economic Cost of Domestic Hunger.'' There is 
a cost to not doing something on this. Kids who don't eat, who 
are hungry, can't learn in school. Kids who don't eat, who 
don't get enough food, get sick. And there is a tremendous cost 
that we are paying. So when people talk about, well, we have 
got this big debt and this big deficit, understand that not 
doing enough to combat hunger adds to that debt significantly.
    And I will just say that, you know, we have spent hundreds 
of billions of dollars on a war in Iraq that is not even paid 
for; it has gone on a credit card. And there has been very 
little outrage over that. I mean, no accountability and no 
offsets for that money. It seems to me that, in the short term, 
investing a little bit more in helping to try to address this 
problem and getting it right, investing in our kids, in 
particular, will ensure that they have a better future and this 
country has a better future. And I hope that we are turning the 
page.
    And I do hope that we are going to have a long-term 
strategy. That is my hope; there is a long-term strategy, not 
only to end hunger but also in the process to reform these 
programs to make them work better and hopefully at some point 
get them to where there is no need for these programs anymore.
    I thank you all.
    Chairman Spratt. Thank you, Mr. McGovern.
    Mr. Hensarling.
    Mr. Hensarling. Thank you, Mr. Chairman.
    And thank you for calling this very important hearing. 
Particularly in challenging economic times in our Nation's 
history, it is very important that Members of Congress go back 
and thoroughly inspect just how supportive the social safety 
net is in America. I certainly appreciate the passion that the 
gentleman from Massachusetts brings to this issue as well.
    As we debate what we as a Congress need to do going forward 
though, I do think it is important that we have the facts on 
the table.
    Welfare is important. Welfare checks are important. I 
believe paychecks are more important. But as I understand it 
from figures I received from OMB, in this decade alone, food 
stamp spending has increased 120.9 percent, an average annual 
rate of increase of about 9.3 percent. Inflation over that same 
time period has grown less than 3 percent.
    We know that what is common, which is now called SNAP--
which most people still understand is food stamps--is an 
entitlement and has risen at a multiple above inflation. That 
is not to say that we shouldn't do more, but I think it is 
important to get those facts on the table.
    Ms. Parrott, I think I have heard you say that you would 
not be in favor of rolling back the welfare reforms that took 
place in the TANF program. Did I understand you correctly?
    Ms. Parrott. What I said, to be clear, is that it does not 
mean that welfare reform should not be work-focused. That 
doesn't mean that I think that every element of the 1996 
welfare law or the 2006 Deficit Reduction Act are good policy. 
I think the notion that welfare reform should be work-focused, 
however, is something that is broadly, on a bipartisan basis 
and across States, something that people support.
    Mr. Hensarling. There are numerous press reports out today 
concerning the omnibus spending bill that some refer to as a 
stimulus bill. I hope we have an opportunity to read it. The 
latest press reports say that it weighs in at roughly 1,400 
pages.
    There are reports that--and if you look at the model of the 
House bill and the Senate bill--we will punish States who have 
successful welfare reforms. We will reward States that have 
unsuccessful welfare reforms. And as I look back at the history 
of TANF, what I saw is that child poverty dropped by 1.6 
million fewer children than before TANF. Employment of young 
mothers doubled. Employment of mothers who had never married 
was up by 50 percent. Employment of single mothers who dropped 
out of high school was up by two-thirds. We had unprecedented 
declines in poverty in children of single moms from 50.3 
percent to 41 percent prior to the economic recession.
    So, again, we don't know what is in the bill, but if press 
reports are true, would you be concerned about rolling back 
those aspects of welfare reform and TANF?
    Ms. Parrott. Well, I would be happy to explain the 
provision as I understand it. This provision was in both the 
House and Senate bills. It was in those bills at the mark up, 
so these provisions have been around and available for 
inspection for some time. And the provisions between the House 
and Senate were very, very similar. So I think we have a fair 
degree of knowledge about what the final package is likely to 
look like. It does not roll back welfare reform. I think that 
is something that some people, some outside analysts are 
waiving around to sort of incite sort of an old-style welfare 
debate.
    Let me tell you what it does do. What it does do is to say 
to States, if because of this recession you have rising numbers 
of people in need and you provide support and basic assistance 
to more people--because in this environment we have more people 
and more kids living not just in poverty but in deep poverty--
if you provide help to more people, the Federal Government will 
help pay some, but not all, of those costs. And the help is----
    Mr. Hensarling. Forgive me. I am going to have to 
interrupt, my time is running out.
    Another point I would like to make, I believe you advocated 
passage of the so-called stimulus bill. I am curious if you had 
studied the stimulus bills that were passed in Japan in the 
1990s that created the largest amount of per capita debt in the 
world and brought their per capita income from 2nd in the world 
to 10th in the world and increased child poverty. Have you had 
an opportunity to look at that similar legislation?
    Ms. Parrott. What I do know is that many people think that 
what happened in Japan--on which I am not an expert--is that 
there was a need to address both the spending issues and the 
financial crisis at the same time. I believe people are trying 
to use those lessons in crafting a multifaceted approach.
    But I think it is very important to be clear that a 
temporary increase in spending is not driving our long-term 
deficit picture. Nobody has written more than the Center on 
Budget and Policy Priorities about the long-term deficit 
problems and the need to bring revenues and spending into line 
over the long term so that we don't have a crushing amount of 
debt that our economy can't handle.
    But this package is temporary. And the increase in the 
long-term deficit is not even rounding error in that long-term 
deficit picture. This committee knows better than anyone that 
that long-term picture is going to have to be addressed, and 
very difficult priority decisions lay before us. But this 
temporary spending measure isn't really about that long-term 
deficit problem.
    Mr. Hensarling. I appreciate the sentiment. I hope it 
proves to be, in some respects, a temporary problem for a 
temporary emergency. My experience in Washington is that most 
temporary programs end up being permanent programs.
    But according to the Government Accountability Office, we 
are on the verge of being the first generation in America's 
history to leave the next generation with a lower standard of 
living. And I hope that as we look at this legislation and see 
items like $50 million to the National Endowment for the Arts; 
$200 million for office furniture for the Public Health 
Service; $1 billion for the follow up to the Census; that if we 
are really passionate about increasing child nutrition 
programs, maybe, instead of passing on debt to the very same 
children we are attempting to feed today, maybe we can make the 
tough decisions in the budget about what is a true 
prioritization.
    Thank you, Mr. Chairman.
    Chairman Spratt. What we are going to do is recognize next 
Rosa DeLauro because of her chairmanship of the Ag Subcommittee 
on Appropriations and her long-time interest in support of 
these programs.
    Ms. DeLauro.
    Ms. DeLauro. I want to thank the Chairman, and I want to 
thank the panel very much for their commentary.
    I would just make one comment to my colleague, Mr. 
Hensarling, that had we been concerned about the debt that our 
kids were going to pay, we would have several years ago done 
something about the high rate of tax cuts that we provided to 
the wealthiest people in this Nation, and we would have done 
something about the rate of spending that we did with regard to 
the Iraq War and thought more about it.
    Let me just mention to you, because I think this is 
important for you to know with regard to Texas, 2.4 million 
people in Texas use food stamps to buy food every month; 10 
percent of the people in Texas. During the recent rough 
economy, the food stamp program participation--participation 
increases in this program because people are in greater need. 
And in your State, in 2000, an average of 1.3 million Texans 
received food stamps each month. That number rose steadily to 
2.4 million in 2007; 82 percent increase. You take a look at 
any of the numbers that talk about, you talk about what is 
getting calculated in food stamps is that those numbers 
increase in participation because the need has increased.
    It is also important to note--and sometimes people forget 
this--when we deal with programs such as this, that the reason 
why we have a school lunch program in this country today is 
because when they were recruiting for World War II, they found 
that the recruits were malnourished. So out of a defense 
industry, we decided to put forward a program that said, let's 
try to do something about making sure that you have--that 
nutrition is important for what we to.
    I think Dr. Frank's comments with regard to what happens to 
children who are malnourished--and it is happening over and 
over again--are telling. We know the data. We can understand 
it. We can take the reports. We can put them on the shelves. 
And then we can do nothing about it. Well, that, in my view, is 
negligence of the highest order.
    Mr. Hensarling. Would the gentlelady yield?
    Ms. DeLauro. Yes. I would be happy to yield.
    Mr. Hensarling. I thank you, since the comments were 
directed at me.
    Number one, I think, as the gentlelady has been a member of 
this committee, she has seen the statistics that when we have 
brought about tax relief during the last recession, that we 
actually grew into positive GDP, and tax revenues increased.
    Second of all, I appreciate the gentlelady enlightening me 
about the Texas statistics. As a Texan, I can tell you, my 
constituents need more paychecks than they need welfare checks. 
And there is nothing----
    Ms. DeLauro. These are not welfare checks. And I take back 
my time. These are not welfare checks. It is kind of nice for 
all of you to continue to talk about them as welfare checks. 
These are people who are working. They are people who are 
paying taxes, and, quite frankly, they are mostly working 
people today who are in this difficulty for a whole lot of 
reasons which I am not going to get into of the economics of a 
past administration.
    I would just say to one of the panelists, Mr. Besharov, 
this morning, my view--and we have a child tax credit, a piece 
in this stimulus package where the eligibility is $3,000. I 
listen to you, and I say, I wanted it to go to zero. If I 
understood you correctly, that we should have gone to zero in 
order to make those folks at the lower income be able to take 
advantage of this program, and quite frankly, at the moment, 
the threshold for the child tax credit is about $12,000. That 
means anyone who makes below $12,000 is not eligible for a 
child tax credit. In the House, our bill was passed, and we 
wanted to take it to zero, but we weren't able to get there. 
For a whole lot of political reasons, we weren't able to get 
there. If we had been able to get there, almost 3 million more 
children would have been eligible for that child tax credit.
    And what happens with that child tax credit, which is one 
of the things that is--about paychecks and getting people money 
who are--and these are people who are working. This is from the 
first dollar earned. This is no welfare check the way we like 
to characterize this thing. By lowering the eligibility to 
$3,000, we are going to give families an additional, almost 16 
million children, their families an additional $1,432, and 5.5 
million newly eligible children will be eligible.
    That is the kind of effort that we are making in this 
stimulus package. That is reform of the system in order to deal 
with--and Mark Zandi has said, you want to make this piece the 
most stimulative that you can. And Mark Zandi was not the 
economic advisor to Barack Obama, but he was the economic 
advisor to John McCain. And it is listed here--and I do have a 
question for you, Dr. Frank, if my colleagues will indulge me 
here. He has Mark Zandi, Moodys.com, $1 in food stamps 
generates $1.73 in increased economic activity. At 73 percent, 
a return on investment guaranteed to be higher than will be 
received on any other stimulus investment.
    And he moves forward from that in talking about refundable 
tax credits and what kind of an effect they will have in order 
to get to people who need it the most, who are going to spend 
it and begin to turn this economy around.
    My question to Dr. Frank, and I thank you for being here, 
again, I thank all of you. And Dr. Frank, you were with us when 
we did the Children's Summit in 2007, and grateful for your 
testimony at that time.
    The statistics are not 2008. What is happening in 2008 
among children? And this is after the recession has begun. What 
does it show? What is likely to happen to the rates of hunger 
and malnutrition among children without this increase in the 
food stamp benefits?
    And if I could just say this, I think it is a mistake for 
some of us to buy into this politically correct commentary of 
``food insecure.'' It is hunger. People are going hungry in 
this country. And we talk about the food supply that we have 
and that we have the safest food supply--well, that can be 
brought into question--but we produce a lot of food in this 
Nation, and kids and families are going hungry. That is an 
immediacy that we have to focus on and get something done and 
turn it around before we focus in on some other areas.
    Dr. Frank.
    Dr. Frank. I don't think we have decent national data. I 
can only tell you what I told you in the testimony, that our 
program is a sentinel program. If you want to know, is bird flu 
arriving, you don't go door to door and knock and say, is 
anybody in the house coughing? You sit in an emergency room and 
you count the number of additional people who come in coughing, 
and then you figure out if they have bird flu. That is what a 
sentinel program does, and that is what we do for under-
nutrition in very young children.
    And again, we can tell you that the food insecurity rate in 
the first 6 months of 2008--we haven't analyzed the second yet, 
we are working on it--was up about 34 to 38 percent compared to 
last year in our five sites. It is not national data. And then 
I can only tell you from the clinical trenches that the refer 
rate is up. And I was talking to my colleague from Minnesota, 
who was tearing her hair out about the kids she was seeing way 
up with rickets.
    So, at the moment, I think we only have intimations. I am 
not the person that can do the calculations that says, for 
every child that goes into poverty, surely hunger will go up. 
But at the moment, I have a worm's eye view. I am sure maybe 
somebody else might have a better view, maybe Dr. Besharov or 
Ms. Parrott.
    Ms. Parrott. Well, I think the problem is that the data is 
lagged. The one data source that isn't lagged--well, there are 
a couple, and one is food stamp caseloads. And in my testimony, 
you will see that there is a chart that shows just how well 
food stamps, unemployment and poverty track each other over a 
very long period of time. So the fact that we have significant 
sharp rises in the food stamp program is, I think, virtually 
sort of a slam--i mean, it is sort of irrefutable evidence that 
we have rising hardship and rising poverty. And certainly 
unemployment rates, the number of people unemployed, the drop 
in the overall employment, and the loss of 3.6 million jobs 
says to us that we know that poverty is rising.
    The one thing I want to say is that I think there are parts 
of this stimulus package that are really effective at pushing 
against what I call that rising tide of poverty. And the Child 
Tax Credit, the Earned Income Tax Credit provisions, the 
refundable part of the Making More Pay Credit, just those three 
together we estimate will protect about a million kids from 
poverty.
    So, do I think we are going to see rising poverty when we 
get the official Census data? Yes, I do. But I also think that, 
when you take the tax provisions, the food stamp provisions, 
the unemployment provisions, and you put them together, I think 
it represents a serious significant effort to shore up the 
safety net in the short run while we are in this very difficult 
time.
    Ms. DeLauro. Long time, my time has expired. I have a final 
comment to make, and I beg the indulgence.
    Chairman Spratt. Would the gentlelady suspend just for an 
announcement to members of the committee?
    This is a reminder that there is a congressional tribute, 
bicentennial of the birth of Abraham Lincoln, which begins, I 
believe, at 11:30. Those who would like to go to that should be 
on notice that it is about to occur. I am going to stay here 
for as long as members would like to put questions to our 
witness panel, but I just wanted to remind you of this event 
which is coming up.
    Ms. DeLauro. I would just say, what we did in the farm bill 
was, quite frankly, extraordinary, I think, given what people 
faced. And no one on this committee on either side of the aisle 
or the Wall Street folks who complain about the bonuses that 
are cut back, what we tried to do in the farm bill was to say 
to folks, for 30 years, the minimum benefit was at $10, for 30 
years. We raised it to slightly under $14. Since 1996, the 
standard deduction from the current level was $134. There is no 
cost-of-living increase. Folks didn't get a cost-of-living 
increase. It went to $144. And we began to index some of the 
assets to inflation, which everyone who works, who sits in this 
body understands to a fair degree the cost of living, and that 
didn't happen. That is what happened in the farm bill.
    And when you talk to folks who get food stamps, yes, at the 
beginning of the month, they buy milk, they buy fruit, they buy 
vegetables. And at the end of the month, there is nothing left. 
And when your kid is hungry, you buy soda because it fills 
their bellies. And you eat french fries, and it fills their 
bellies, and it causes serious health problems.
    When we begin to take a look at what the issues are and 
what we need to focus on, then maybe we will begin to start to 
address the challenges these people are facing and make sure 
that government is playing the kind of role that it should and 
exercising moral responsibility in these areas.
    Thank you, Mr. Chairman.
    I thank my colleagues.
    Chairman Spratt. Thank you, Ms. DeLauro.
    Mr. Nunes.
    Mr. Nunes. Thank you, Mr. Chairman.
    I want to commend the gentlelady from Connecticut for her 
passion for this issue of feeding the hungry.
    However, I do want to point out that there is a lot of 
discussion about the stimulus package and what it is going to 
do to fight poverty and hunger. But some of us, at least myself 
and I think many of the Republicans, have yet to see the 
stimulus package. I don't know if anybody on the witness stand 
has seen the stimulus package yet, but I think it would be a 
little premature to try to explain what is in the bill when we 
haven't seen it.
    Mr. Besharov, you have criticized the food subsidy program. 
I have a very large agriculture district, about 300 different 
crops in California. And you have really criticized the school 
lunch program as it relates to its contribution to obesity in 
young children. And so would I would be interested to know, 
because I have worked on this issue in the past about trying to 
include more fruits and vegetables into the school lunch 
program, specifically what suggestions do you make that this 
committee could look at in the future as to improving the 
program?
    Mr. Besharov. Well, thank you very much.
    I think this goes to the entire question of whether food 
programs in general can be reformed. Some people in the food 
industries think that it is only because of food stamps and 
school lunch programs and so forth that people eat food. I 
don't think if we got the balance right in aid to low-income 
families, food consumption wouldn't go down that much. There is 
evidence that food stamps increase food consumption by about 20 
percent. My own feeling about that is that, for most people, 
that is a 20 percent that they could do without, that I could 
do without. So I don't think the fear on the part of 
agricultural interests that if food stamps were cash, their 
interests would suffer.
    When we teach about this in about 90 percent of the policy 
schools in this country, we say food stamps are stamps or 
credit cards instead of cash in a welfare payment or in a tax 
benefit because the politics on the Hill wouldn't allow us to 
increase tax write-offs or credits or so forth. So we deal with 
the reality--I am sorry to be so blunt about this--we deal with 
the reality that this thing seems to have to be separate in a 
credit card or in a coupon instead of being money. With that 
fact comes tremendous added friction in how the poor eat. If 
they are WIC, if they are trying to get WIC, they are taken 
advantage of by WIC providers. In the school lunch program, you 
get these tremendous inefficiencies as schools try to make due 
under Federal rules. So across all of these programs, making 
aid more like cash would be better for the program. It might be 
worse for the politics, I understand that.
    So now I will try to answer your question in a way that I 
think you want to hear.
    When Mr. McGovern said he would love to see more 
coordination, I was saying, boy, do I agree. We have a WIC 
program that was planned before food stamps were wildly 
expanded. If you look at those two programs, there is no 
particular reason why they shouldn't be much closer together, 
if not run the same way. We undercut the counseling that goes 
on within the food stamp program. We don't have sufficient 
nutrition counseling in the WIC program. The Congress felt it 
could change the welfare program--and here I disagree with 
Sharon. Welfare reform essentially got unraveled in the 
stimulus bill. There was no hesitancy to change TANF, but there 
was no change to many of these other programs where the vested 
interest still reigned supreme. You could have fixed a little 
bit this connection between food stamps and WIC, the school 
lunch program, the school breakfast program. There is a list of 
reforms from the left as well as the right; they could have 
been inserted just as easily as the TANF changes were inserted 
in the stimulus package. They weren't. I understand the 
politics of that.
    Why I am sad--I am not complaining. I am just bemoaning the 
opportunity that was lot lost. The chances of getting 
congressional committees 2 years from now to say, I give up my 
jurisdiction, let one committee take care of this, the chances 
of moving food programs out of agriculture into some kind of 
anti-poverty agency went down considerably with the increased 
expenditures that the Congress has authorized. So that is sad. 
I am not angry. It is sad, because it is an opportunity lost to 
reform these programs at a time when it would have been 
possible to do it with small changes.
    I hope that is an answer to your question.
    Dr. Frank. Mr. Chairman, am I permitted to make a comment?
    Mr. Nunes. I think my time is up, Mr. Chairman, so I yield 
back.
    Chairman Spratt. Dr. Frank, go ahead.
    Dr. Frank. Working among the poor, food is the only 
fungible part of their budget, which is why people become 
purely dependent on food stamps for their food budget because 
every other penny has to go to utilities, housing and getting 
to work. So I would be perturbed--I think people would eat even 
worse and their children would eat even worse if food stamps 
were not designated for food. So I find that very concerning.
    I also have seen many people who are above the cut-off for 
food stamps, which is 135 percent of poverty, who are high 
nutritional risk. And so I would be very sad, also, if all 
those children lost access to WIC.
    Finally, if these things all interdigitate, I mean, we 
found that energy problems, housing problems, and food 
insecurity, you could make an index out of them, and you can 
see a dose response when they are all three together on child 
well-being. So just as a clinician, I would say I was a little 
perturbed.
    We also have data, by the way, about TANF, from way back 
when, when it was starting, the families who were sanctioned 
off TANF--and in Massachusetts, we have this family cap 
thingy--that you could find more hospitalizations, more food 
insecurity in their kids. So I don't think that that was a 
victimless crime, so to speak. I mean, that is not the right 
thing to call it. But from a little child's point of view, I am 
not sure it was a great success, at least for the ones that I 
take care of and the ones that I research.
    Chairman Spratt. Mr. Blumenauer.
    Mr. Blumenauer. Just reflecting for a moment on the most 
recent comments and thinking about Ms. DeLauro talking about 
struggling to raise the minimum benefit from $10 to $14 a 
month. And I am struck by, maybe what we want to talk about 
reform, we split this out, as you refer, from rolling it into 
the agriculture and nutrition. Because I am struck at the 
difference in terms of paperwork, income limits. I mean, we 
could not even, with the President supporting us, we couldn't 
lower the maximum payment to farmers to a quarter million 
dollars. We couldn't do that. And we are still paying some 
subsidies to dead farmers. That kind of rankles people.
    You talk about the spectrum from right to left, there is a 
spectrum to try and reform the agricultural program so that we 
are not lavishing it, for example, on some of the richest 
people in America, like the sugar producers, and then everybody 
in America pays so that they are on the gravy train, which 
virtually every independent observer agrees is wrong.
    We have got this bizarre disconnect when it comes to one 
end of production where we are not very hard core about 
restricting who gets it, how lavish it is, modest reforms in 
things like crop insurance, where we don't have to fight 
through that all over. But it strikes me that there is a 
stunning different standard. Richest farmers, not the average 
farmer, richest farmers, agribusiness, very high limits, not 
much in the way of paperwork, and we really focus on poor 
people who need it. We have a different standard, different 
screen. And because they are mushed together, it appears that 
the most vulnerable lose.
    And I am wondering if any of you would elaborate on the 
notion of splitting it out, concentrating on nutrition, not 
tripping over ourselves with subsidies for cotton farmers that 
grow cotton in the desert, and whether it is going to be a 
million dollars or a quarter million or a half million--and 
focus in on what would happen if we split this, focused, and 
maybe have some uniform standards about who benefits and what 
our expectations are.
    Dr. Frank.
    Dr. Frank. I think that is outside my area of expertise.
    Mr. Besharov. There is an argument in the academic world 
about whether the agriculture lobby needs the food stamp 
program to pass or whether the food stamp program needs the 
agriculture bill to pass. I have looked at this literature. It 
is very interesting literature. It is, who has got the balance 
of power in this argument? You are asking me that question.
    My impression is that the ag interests need the urban 
Democrats more than the other way around, but that doesn't seem 
to be the conventional wisdom on the Hill.
    Mr. Blumenauer. Ms. Parrott.
    Ms. Parrott. I guess I would limit my comments to the 
substance of a program, and I will let you all sort out 
jurisdiction among congressional committees.
    Mr. Blumenauer. I want to be clear, I am not talking about 
jurisdiction. I am talking about standards that we use to 
appraise, in terms of paperwork, in terms of eligibility, in 
terms of concern. Are we as concerned about these poor children 
as we are rich sugar farmers?
    Ms. Parrott. Well, I think that there are a number of 
improvements that were made in the farm bill and that were made 
in the previous farm bill that went part of the way to trying 
to make the program more accessible particularly to working 
families, trying to reduce some of those paperwork hurdles, 
trying to make it so that people aren't constantly having to 
take off work to come into the food stamp office. And those, I 
think, were extremely important parts of an overall attempt to 
say, when people are eligible for the food stamp program, we 
really want to help them because it is good for their kids, 
because it helps them stay in work, because people will be 
healthier. And so I think those were important strides. Do we 
have further to go? Absolutely. And I think part of it is about 
the Federal rules and part of it is about States looking at 
their programming and asking the hard question: What is the 
next step I can go where I can maintain program effectiveness 
and accuracy but where I have a welcome mat for people who 
really need help? And I think the last two farm bills have been 
really important in trying to ease some of those paperwork 
burdens.
    We know from a lot of research in the health care----
    Mr. Blumenauer. My time has expired. And I want to have 
respect for my other colleagues. I appreciate that. I think 
this is something, though, that we need to look at.
    And doctor, I think your point about who needs whom the 
most, at some point splitting this out, letting it be judged on 
its own merits is important because it seems to me this 
Congress and prior Congresses have not cared as much about poor 
children as they do rich sugar farmers.
    Thank you.
    Chairman Spratt. Ms. Tsongas.
    Ms. Tsongas. Thank you very much.
    And thank you for your testimony.
    As we are talking about the farm bill, initially I have to 
say, as a new Member of Congress and that vote was brought to 
the floor, I had to look to my district, in which I have three 
urban communities in which one out of three children go to bed 
hungry. And so that was a major factor in my decision to vote 
for that bill in spite of my reservations on other pieces of 
it.
    And just anecdotally, to talk about the importance of 
school lunch programs, I have a large high school that I went 
to visit, and they were telling me that they provide breakfast 
and lunch. Towards the end of the week, not too many young 
people show up for breakfast, but at the beginning of the week, 
on a Monday, the line is out the door because these children 
have gone hungry through the weekend. And also in that same 
community, a remarkable dining center run by a local church in 
which many working poor come because it is one place that they 
can get the food that they and their family need.
    But looking ahead to how we can change this--and we have 
talked about it a bit--though you all may differ vehemently 
with each other on specific programs or methods, you have all 
acknowledged in some form in your written testimony that the 
Federal Government does have a role to play in addressing the 
well-being of low-income children.
    Under current law, many Federal benefit programs, including 
SNAP, food stamps, penalize low-income families who attempt to 
put aside even small amounts for a rainy day by reducing their 
benefits. This disincentivizes saving, keeps low-income 
families permanently stuck in poverty and leaves them extremely 
vulnerable to payday lenders in a cycle of ever-deepening debt.
    As we look ahead, in your view, would removing some of 
these barriers to saving, thereby giving low-income families 
the ability to save small amounts when they are able, help 
improve the outcomes of these at-risk families and at-risk 
children? And I don't know if it is beyond some of your ken, 
but I am just curious as to what your thinking might be.
    Ms. Parrott. I can start. I think that asset limits can 
discourage savings. I think they also can keep people who 
really need help in a temporary emergency off the program, 
force them to just save what are usually pretty modest amounts 
of savings, which then means that they have less of a cushion 
for other emergencies that arise.
    I think we also have a problem, particularly with respect 
to retirement savings, where we don't want people to be forced 
to cash out what are often extremely modest amounts of money 
that they have put away for retirement because somebody lost a 
job, and they need to go onto the food stamp program. And I 
think we have made some progress in some of those areas with 
respect to retirement accounts.
    So I think asset limits are an important area to look at. I 
think there has been some progress in some programs. For kids 
in particular, it is not universal, but most States don't have 
asset limits in Medicaid and CHIP, which means that health care 
coverage isn't hinging on whether that family has $2,200 in 
savings and that is too much. But certainly in the food stamp 
program and some of the other programs targeted, there are 
asset limit issues.
    I think there is the incentive not to save. I actually 
think the bigger problem is that people need temporary help, 
and the program shuts them out because of modest savings.
    Mr. Besharov. This is an issue that was of great interest 
during the first Bush administration and their efforts. And I 
think many people feel that it would be good if people who 
receive welfare benefits or food stamps or whatever were not 
penalized for saving money while they were on benefits. It is a 
tricky thing to do, in part because it is so easy to abuse.
    So, in principle, I think many people think it is something 
to do. In practice, it needs time for someone to think the 
process, the rules, the percentages. It would be really nice to 
get--Sharon, I don't know the answer. Are all States now where 
their asset limits lined up between TANF and food stamps? I 
don't think so.
    Ms. Parrott. Not all, but I think most.
    Mr. Besharov. We can't even get--actually, I think it is in 
the thirties. I think it is most people. But we can't even get 
the rules about how much your car is worth sort of lined up.
    But there is a little bit of head banging that could be 
done about this. And that is one of those small reforms that I 
hope next time you do one of these bills, stick a little bit of 
that stuff in.
    Ms. Tsongas. Thank you.
    Chairman Spratt. Thank you, Ms. Tsongas.
    Mr. Scott of Virginia.
    Mr. Scott. Dr. Frank, low birth weight is highly correlated 
with learning disabilities and mental health problems. Can you 
tell me the effect that malnutrition during pregnancy has on 
low birth weight?
    Dr. Frank. Yes. One of the most important determinants of 
low birth weight is the mother's nutritional status when she 
enters pregnancy and the amount of weight she gains during 
pregnancy. And if you study any other insult to birth weight, 
like cigarettes, if you don't control for those two factors, 
nobody believes a word you say, and rightly, because that is 
the most potent determinant.
    So you are right, there are huge social, personal learning 
every kind of cause for low birth weight. And if you can 
decrease the rates of low birth weight, you will decrease not 
only that, but you will decrease dead babies. You will decrease 
infant mortality.
    Mr. Scott. The March of Dimes emphasizes the importance of 
preconception nutrition. Did I understand you to say that was 
important, too?
    Dr. Frank. Absolutely. In fact, one of the problems of our 
system is we don't believe in taking care of women who aren't 
pregnant, especially young women. So they can't really afford 
folate, it is one of the more expensive foods--or certainly not 
pills--so that they enter pregnancy both macro--sometimes 
macro, certainly micronutrient deficient, and the effect of 
folate is before you even know you're pregnant. So that is 
where we get all kinds of troubles.
    Mr. Scott. And what portion of a person's brain growth 
takes place before birth?
    Dr. Frank. That is interesting. A lot. I can tell you that 
two-thirds of it happens, from birth to--in the first year of 
life, two-thirds of the adult size is achieved. But all your 
brain growth happens before growth. I mean, there is no brain 
unless, you know, starting----
    Mr. Scott. So, by the first year of life, you said two-
thirds----
    Dr. Frank. Of the adult size is there. The newborn brain 
doubles 2.5 times in size. I am not an OB, so I apologize for 
not answering that.
    Mr. Scott. And if you are malnourished during that period 
of time, what happens to your intellectual capacity?
    Dr. Frank. There are lasting deficits. And interesting 
again, it is not just IQ, but in things like ability to pay 
attention. So even if it is only 5 or 10 points in IQ, what 
really knocks these kids down later is called executive 
functions and attention regulation.
    Mr. Scott. And is there a correlation between hungry 
children and their ability to pay attention in school, 
behavior, drop out? Are they correlated?
    Dr. Frank. There is a short term and a long term. Anybody 
who has had to miss meals knows that when you are not getting 
enough to eat or you are on the food stamp challenge, you feel 
ugh. You have headaches. You can't concentrate, you are 
irritable. And hungry kids fight more and are more disruptive 
in class. Also, kids who have been hungry as young children are 
more vulnerable to the disruptive behavioral effects of short-
term hunger as older children. That has been shown.
    So, again, if you want kids to be ready to learn, they need 
to be well nourished from conception onward.
    Mr. Scott. Thank you.
    And Mr. Lott, from a law enforcement perspective, is it 
true that there is a correlation between child abuse and future 
crime?
    Mr. Lott. Yes.
    Mr. Scott. And is that why the Nurse-Family Partnership is 
so effective?
    Mr. Lott. Very much so.
    Mr. Scott. People wonder how you can afford programs like 
the Nurse-Family Partnership. What are the long-term costs of 
that program?
    Mr. Lott. I am not aware.
    Mr. Scott. In long term, does it save more money than you 
spend?
    Mr. Lott. Yes. Just to follow up a little bit. If we can 
invest a little bit in these kids, it is going to save in the 
long run. Head Start is $8,000 per kid. To incarcerate a child 
in prison is $55,000 a year.
    Mr. Scott. And you mention after-school programs in your 
testimony because the 3 to 6 p.m. time period is a high-crime 
time period. And if you funded after-school programs, you could 
reduce the incidence of crime?
    Mr. Lott. Yes. If you keep them busy doing something 
positive, the gangs are going to leave them alone. They are not 
going to go to gangs and commit crimes.
    Mr. Scott. Now, if you invested in all of that in 
prevention, is there any question that if you had a substantial 
budget, that you could, in fact, reduce crime significantly?
    Mr. Lott. Yes, we could.
    Mr. Scott. Top 10 States in African-American incarceration 
is 4,000 per 100,000. So 100,000, the population would be 
spending about $100 million in incarceration. Is there any 
question in your mind that if you used a significant portion of 
that on prevention programs, that you could eliminate a lot of 
that incarceration?
    Mr. Lott. Yes, we could. The money up front will save us in 
the long run.
    Mr. Scott. Thank you, Mr. Chairman.
    Chairman Spratt. Thank you, Mr. Scott.
    Mr. Schrader.
    Mr. Schrader. Thank you, Mr. Chairman.
    In Oregon, my business community is very invested, very 
excited about our Oregon pre-K Head Start program and has 
gotten a lot of the results I think that Sheriff Lott has 
talked about in their programs.
    There seems to be a lot of controversy--well, I guess if I 
was to summarize--I would like the panel to comment on, there 
is probably three levels of benefits that one ascribes to Head 
Start pre-K programs. One is--maybe some of the short-term 
benefits--school readiness, ready to learn, nutritionally 
competent so you can pay attention has been alluded to. That 
seems, in my opinion--and please correct me--to have pretty 
much universal agreement; everyone seems to think that that is 
probably true. Things get a little sketchy, I guess, as I 
understand the studies after that, questions about special 
education, how long the results last, is there catch up and 
that sort of thing. Although hearing today, again, the sheriff 
talk about recidivism, juvenile crime, I would think that more 
people would tend to agree that these early education programs 
do help. And there are studies, I know, that show--in Oregon, 
we did a study that the cost of educating that student goes 
down dramatically if you actually get to them early, there's 
less of these special ed programs.
    The one that I would also like to get a comment, it is kind 
of a broad question, is on the long-term effects. Very few 
longitudinal studies have been done. And I guess I would like 
comments on--Mr. Besharov, too--particularly about what sort of 
criteria--I get the sense you are not against any of these 
programs, you would just like to make sure they are targeted to 
the right people; they are measuring the right outcomes and 
getting the right results. So I would be curious about the 
short, medium and long-term effects, of what general agreement 
there is among the panel or not, and recommendations.
    Dr. Frank. There are definitely what are called sleeper 
effects, which means that you see it early, and then you don't 
see it for a while, and then suddenly you see it again later.
    The other thing is that nutrition, Head Start, enrichment 
is not an immunization. And what you really need is a continuum 
from early Head Start and birth, with continued support for 
children up to school age. Also, I forgot to mention, in terms 
of the economic stuff, that my colleagues have done something 
with the Pew Trust that I would like to enter into the record, 
called Partnership for Americans Economic Success. And based on 
the results of learning difficulties and so forth in kids who 
are poorly fed, they have been able to calculate lifetime 
savings instead. And that is just feeding. That is not even 
early childhood.
    I think, again, that also things seem to be synergistic. 
There is certainly data that nutrition plus early education has 
a more powerful effect on later development than either alone.
    Mr. Besharov. If I were just to respond to your question, I 
would start with a well-run analogy, which is the Postal 
Service versus FedEx. Most of the studies that show long-term 
positive impacts on children for early intervention are 
essentially run by the private sector; small, very intense, 
very high-quality programs. When we try to measure the same 
impacts from Head Start in publicly run programs, we don't get 
nearly the results.
    I think Mr. Lott was correct, modest is about a generous 
way to describe what happens what a Head Start child learns 
after a year. And this is why this debate has gotten so complex 
and sort of controversial. Many people--myself--believe that 
the idea behind programs like Head Start are incontrovertible. 
Of course it matters how children are raised, and of course it 
matters--and the government should intervene if the parents 
aren't doing a good enough job--and by the way, the key factor 
here is the parents more than anything else. But I think a fair 
reading of the quality of the average Head Start program--and 
there are some very good ones--is it is far lower than we would 
like, far lower. And again, it is a situation where it is a 
vested interest that is protected by the Congress, not subject 
to the same kind of accountability as your average kindergarten 
class. Now, I am not saying No Child Left Behind is a perfect 
bill. It has got loads of problems, and I am not sure I would 
have voted for it, but it is the case that it establishes some 
accountability for what kids learn or don't learn. In Head 
Start, we have sort of ignored the fact that this is the only 
chance so many disadvantaged children have for a better shot in 
life. And we have been hesitant to say we expect more from the 
program.
    Now, under the Clinton administration, the Congress was a 
little bit more supportive of requiring improvements from Head 
Start. I think the Congress didn't trust the beneficiary Bush 
administration. Maybe under the Obama administration--and 
President Obama has, in some places, said the right things 
about improving programs like Head Start, at least named Head 
Start as a program that needs improvement. But it is a 
fallacy--excuse me for taking so long--it is a fallacy to say 
that FedEx works and therefore the U.S. Postal System ought to 
be expanded. FedEx works, and therefore the U.S. Postal System 
ought to be improved so it works half as well as FedEx.
    Dr. Frank. And to extend the analogy, you get what you pay 
for. And many Head Start teachers are terribly paid. There is 
huge turnover. And so, just like it costs more to send 
something FedEx than by the Postal Service, I think it is a 
very clear analogy: You get what you pay for. And there is no 
argument that there needs to be upgrades into the training and 
support and so on and pay of teachers in Head Start, for 
example.
    Mr. Besharov. I thought for a while we were going to be in 
total agreement. Head Start costs more than any other form of 
care in this country, including care that upper middle class 
children receive. Maybe there is a need for more money for 
staff, but the most important thing is to use that money more 
wisely.
    Dr. Frank. As a physician, what is very important is that 
you look at the whole child, and the nurse and the nutritionist 
and the social worker I think are huge. Also, in terms of what 
causes kids to fail in school, it is not whether or not they 
know three letters or four letters at the end of--that is even 
in question as to whether that is the developmentally 
appropriate rubric, but whether they know how to sit, how to 
listen, how to not beat up on other children, all sorts of 
things, how to know their colors. I can't tell you----
    Mr. Besharov. I know we have gone back and forth. I will 
make you a deal. You can have another 20 percent in Head Start 
if you put some rules about Head Start----
    Mr. Schrader. My time has expired. I just wanted to hear 
quickly from the sheriff if that was possible.
    Mr. Lott. A modest improvement is better than no 
improvement at all. And part of the reauthorization bill is to 
improve the quality of the program. I know for a fact, watching 
kids, not only are they learning ABCs in Head Start and early 
Head Start, but learning social skills, how to stay in class, 
how to listen. And if we can keep that child in class and 
continue going to school, they are not going to drop out, and 
they are not going to get in crime. If they are out of school, 
and they drop out, I guarantee you most of them are going to 
end up in crime. So paying that little up front is going to 
save us a lot in the long run.
    But the quality of Head Start is improving. But again, a 
modest improvement is better than nothing at all. And if we cut 
it out, we don't have anything.
    Chairman Spratt. Ms. Moore of Wisconsin.
    Ms. Moore. Thank you, Mr. Chairman.
    And I think this is a very impressive panel. I guess I want 
to start out with Mr. Besharov.
    You have made some very kind of provocative statements, and 
some of which I agree. You talked about the funding for some of 
the nutrition programs like WIC, for example. And I do think it 
is important to make sure, for example, that more fresh fruits 
and vegetables are available under this program rather than 
just providing a subsidy for our dairy farmers with cheese and 
so forth. It is a program that doesn't necessarily support 
nursing moms. So it is really, you know, what happens when you 
are a lactating mom, you need more fruits and vegetables than 
fat and cheese. So I just wanted to make that particular 
comment.
    Mr. Connolly. Even though you are from Wisconsin.
    Ms. Moore. Even though I am from Wisconsin, I am for 
breastfeeding.
    I also wanted to just comment on something like the Head 
Start program. You know, the alternative for many families who 
are trying to get one of those Head Start slots is just staying 
at home with maybe an elderly grandmother on the days she is 
not at dialysis treatment. So Head Start has been extremely 
important.
    And I think you should have listened to what the doctor 
said. Head Start is only good if there is a maintenance of 
effort involved. Any kind of educational program, the benefits 
of it, there will be some slippage if there is not maintenance 
of effort.
    I have a question for you, Ms. Parrott, with respect to the 
welfare program. I am from Wisconsin, Frankenstein's laboratory 
for welfare reform. And you made a very interesting statement 
to our colleague, who is not here, that it ought to continue to 
be work-based. I want to ask you just very quickly; of the 
numbers of children who are served under TANF, how many of them 
are under 12 years old?
    Ms. Parrott. The vast majority. I don't know the capacity.
    Ms. Moore. But something astronomical, like 80, 85 percent. 
So these are kids who can't even read a newspaper, so how are 
they going to work?
    So in terms of a safety net being a work-based program, we 
know that economies are cyclical. So the point at which Mr. 
Hensarling talked about having lifted folk out of poverty in 
1996 when we ended welfare as we knew it, we were riding on the 
Clinton good economy.
    So can you compare the numbers of kids who are in poverty 
now as opposed to those who were in poverty when we started the 
welfare program?
    Ms. Parrott. Well, child poverty did fall--I didn't bring 
all the data with me, and I don't keep them in my head--but 
certainly child poverty fell, and child poverty fell pretty 
significantly. It is pretty clear from the research that the 
attempts by some to ascribe all of that to the wonders of 
welfare reform are vastly overstated. Welfare reform did help 
move some people into work, and that did reduce poverty. But we 
significantly strengthened work support in the 1990s. We 
expanded child care assistance. We expanded health care 
coverage to children in low-income working families, and we did 
very significant expansions in the Earned Income Tax Credit.
    The work supports, the strong economy and, to some extent, 
the work-based supports in welfare reform kind of created a 
three-legged stool that helped move more people to work and 
helped reduce poverty. But I will say that amidst that good 
news--and that is good news--but in the midst of that good 
news, there are some disturbing trends with respect to the 
ability of our safety net to respond to the needs of the very 
poorest kids. And that actually grew weaker in the wake of 
welfare reform.
    Ms. Moore. That is very important. So can you just--what 
numbers of children are we seeing in poverty right now.
    Ms. Parrott. About 17 percent or 13 million kids are in 
poverty. We did start to see an increase in child poverty in 
2005.
    Ms. Moore. And hunger as well.
    Ms. Parrott. I mean, in 2007 as well, I am sorry.
    Ms. Moore. And hunger.
    Dr. Frank. The most severe hunger.
    Ms. Parrott. Yes. That we did see some increase in the 
latest data on childhood hunger. I think all of that data is 
obviously very outdated.
    Ms. Moore. Okay. I have 2 seconds left so one quick 
question. And that is that you said that we needed some kind of 
safety net, particularly now with the kind of economic cyclical 
event that we are experiencing now. And we have no effective 
delivery system for the poorest kids now that we don't have 
AFDC and that we have time limits. Is there something that you 
could suggest to this committee for delivering services, 
assuming that this recession may deepen, to those families and 
to those children?
    Ms. Parrott. Well, I think that the reality is we are going 
to need to rely on the State delivery system because that is 
the system that is giving kids food stamps and giving them 
health care. They have the capacity and they have the resources 
to provide basic assistance to more families when more families 
fall into deep poverty. I think it is a real test of welfare 
reform and State TANF programs as to whether those programs 
will respond to the rising number of kids in poverty and deep 
poverty. We see that in some States caseloads are responding 
and more kids are getting help. And in other States in very 
difficult economic situations that isn't happening. And so I 
think this is an open question as to how well TANF will respond 
to rising deep poverty in the recession.
    Ms. Moore. Thank you so much, and I yield back.
    Chairman Spratt. Mrs. Lummis.
    Mrs. Lummis. Thank you very much, Mr. Chairman. My 
questions are for Dr. Besharov. Have I pronounced that 
correctly?
    Mr. Besharov. You sure have.
    Mrs. Lummis. Thank you, sir. You speak in much of your 
literature about the need to reform Federal safety net programs 
to avoid fostering a culture of dependency on government 
services, the massive expansion in safety net spending 
included. And the versions of the stimulus bill that we have 
seen so far include food stamps, Medicaid, TANF, and they are 
mostly absent meaningful reform in this direction.
    Are you concerned that these massive, no-strings-attached 
spending increases could further facilitate the creep of the 
culture of dependency into the middle class?
    Mr. Besharov. I am not sure middle class because I am not 
sure what the middle class is. But it surely is the case that 
for the lower middle class we are creating a set of rules that 
generate if not dependent behavior, then dependency on the 
government. I will give you one example which I found quite 
striking.
    Maybe 40 to 60 percent of the pregnant women who go on WIC 
go on WIC because their income went down because they left 
their jobs to have a baby. They are otherwise from middle class 
families, and because of WIC's relatively generous benefits 
those women go on WIC.
    Now, my colleagues here on the panel will say that is all 
right because that is needed. Here is what happens. When you 
all are trying to get money to expand WIC for the truly needy, 
when the Congress is trying to get money to expand nutrition 
counseling for WIC recipients, that money that is going to more 
middle class families doesn't disappear, it is counted against 
WIC, it is part of the WIC spending.
    So Larry Summers said about a stimulus bill, if I remember 
correctly, temporary, targeted and timely, his three Ts. 
Targeted is tremendously important in the stimulus bill, not 
just because we want to increase economic activity, but because 
in the long run mistargeting these benefits will create 
expectancies that will continue in the future. That is why I am 
afraid that these programs will create a different level of 
dependency.
    Sharon was talking about the TANF provisions. In the 
stimulus bill is a provision that gives the States 80 percent 
of the cost of anybody they add to the welfare rolls, 80, which 
is about almost every State reimbursement rate. That is a giant 
incentive for the States to put people on welfare, a giant 
incentive. And the States will do it whether they have an 
increase in poverty or not. They will move people from other 
programs and put them on TANF to claim a benefit.
    So there is no doubt in my mind that TANF caseloads will go 
up regardless of the economic situation in the State, and to me 
the only question is whether this provision will disappear in 2 
years or whether it will be with us forever.
    Mrs. Lummis. Thank you. And Mr. Chairman, one more question 
for Dr. Besharov. I can tell you in my home State of Wyoming 
that WIC is a wonderful program and so I am focused on trying 
to make it healthy, keep it healthy, and keep it focused on 
those who need it the most. Can you give us your thoughts about 
what the most ripe areas for reform are?
    Mr. Besharov. Two. First, if you go to a WIC office and you 
ask the people who provide nutrition counseling, what do you 
counsel the people who come in for WIC. It is to not eat many 
of the things that are in the WIC package, which is don't eat 
so many eggs, don't eat so much cheese, and so forth. So the 
move to broaden or improve or vegetize the WIC package is 
tremendously important.
    Congresswoman Moore talked about breast feeding. The 
research says, notice I am not saying because I don't 
understand the process too well, but the research says that WIC 
discourages breast feeding. And from everything we know it is 
very important that all women who can, who can, should breast 
feed.
    I am sorry. I am sorry. You know, the research is research. 
I know this is Capitol Hill where you can ignore research, but 
the research is widely written about, and it is a problem 
because the incentive package works that way.
    I said I didn't know. I was trying to be very honest about 
it, Ms. McCollum. I am just saying what I read in the 
literature written by academics, not from the left or the 
right, but serious academics that are worried about it. Ms. 
Moore was worried about it. It is a serious problem in the 
program, and I just really would like a little bit more respect 
on that.
    Chairman Spratt. Let us give Dr. Frank--I think Dr. Frank 
probably----
    Dr. Frank. Go ahead.
    Ms. McCollum. No, the Chair controls the time.
    Chairman Spratt. I want to give Dr. Frank an opportunity to 
respond to that statement.
    Dr. Frank. WIC has had a breast feeding push recently. And 
if you look at people who had not have breast fed, you know, 
epidemiologic criteria has been quite effective.
    The second thing about the package is in fact there is a 
much more revised package that is right now being rolled out 
now. The problem is it is not funded adequately because it had 
to be revenue neutral or whatever neutral, something neutral, 
to provide the amount of fruits and vegetables that the IOM 
recommended. And that is one of the things the people are 
pushing for in the child nutrition reauthorization; is, yes, 
there is new research and, yes, there are no ideas. WIC has 
evolved, a lot has science has evolved, and it is always 
somewhat behind. Just like the food pyramid is always behind 
science, it is just always behind science. But it is certainly 
moving in the direction that Mr. Besharov has outlined.
    So I think it is misleading to rely on old data and old 
facts.
    Mr. McGovern. Could the gentlelady yield for one second.
    Dr. Frank. Am I gentlelady?
    Chairman Spratt. I next recognize Ms. McCollum.
    Ms. McCollum. Mr. Chair, I will be brief, but I would 
encourage the doctor to go to some WIC centers. I have been in 
a lot of WIC centers lately. There is charts up for breast 
feeding. The formula is not even on the shelf so that if 
somebody is asking for formula there is somebody who takes a 
few minutes and sits down and talks to them and does this. The 
food schedule has changed. So you, with the best of intentions, 
I think had some misinformation about what reflects the 
accuracy of the program right now. So I would encourage you to 
get out and visit some WIC centers. They would love to have you 
there.
    Mr. Chair, is this my time now?
    Chairman Spratt. This is your time.
    Ms. McCollum. Thank you, Mr. Chair. You know the data shows 
a really shameful picture here in the United States. The future 
of America, 73 million children, 73 million children, where we 
are the richest country in the world, 18 million of them live 
in poverty. And the recovery package that is before the 
Congress right now is to create an opportunity for those 3 
million children unfortunately who might be falling into 
poverty, the same children who are going to build our bridges, 
be our doctors and teach our grandchildren in the future. We 
need to give them every tool in the tool box to succeed, and 
that is what the recovery package is attempting to do.
    But what does poverty mean? We have all talked about it. 
And Dr. Frank, you did a great job. It means a child going to 
bed at night with pains in their stomach, waking up in the 
morning thinking about what is down in the kitchen for 
breakfast. It is a child and a parent wondering where they are 
going to sleep that night, if a family member will take them 
in. Or maybe they are still in their home and they are afraid 
the sheriff is going to come knock on their door for 
foreclosure. It is a child or a parent knowing that the child 
is sick, that their ear hurts, that they should go see a doctor 
now, but waiting until that eardrum ruptures because they don't 
have health care.
    So if our children are a strategic resource, if we aren't 
even going to talk about our moral responsibility to one 
another as human beings, our children are a strategic resource, 
it is essential for the future of this economy, for the 
development of this country and for our democracy, to let these 
children out of poverty.
    So I want to focus a little bit on the testimony of Dr. 
Frank and the sheriff here.
    We know that early experiences in nutrition in the first 3 
years of life are literally shaping the architecture of the 
brain. I love that coined, ``shaping the architecture of the 
brain.'' How much does investing in young children's health and 
nutrition reduce the cost of remedial learning, social 
difficulties, and health care? And if we are only beginning to 
study that to really understand it, what should this Congress 
be doing, what should this Budget Committee be doing to address 
what we now know scientifically is so important in the first 3 
years of life in order to reduce costs later for this country, 
to reduce social problems later that the sheriff pointed out? 
What is our responsibility to invest in the most precious 
resource in this country, our children?
    Mr. Lott. If we don't feed our kids and give them an 
opportunity to succeed in school then I am going to have to 
deal with them later. And the cost of me dealing with them in 
crime is a lot more than it is investing in them at an early 
age. I think it is our responsibility to make sure that they 
have that opportunity to eat and to succeed in school.
    One thing the economy has done the way it is now has made 
job security for law enforcement. As the economy goes down 
crime is going up. And not only today is it impacting us but it 
is going to impact us years from now because these kids that we 
are not taking care of today are going to be our teenagers who 
are out here robbing and stealing and murdering people. So we 
are going to have to deal with them long term if we don't 
develop programs that is going to help them to succeed in life 
and in--in school and in life. It is either pay now or we are 
going to have to pay a lot later on.
    Dr. Frank. As I said, I am not an economist, but my 
colleague--both the Brandeis report that Representative 
McGovern cited and my colleague Dr. John Cook have done a 
calculation that if food insecurity--this study that says food 
insecurity doubles the likelihood of a child needing special 
ed. So you wouldn't be able to abolish all need for special ed 
if you solved food insecurity. But if you take--he calculated 
that you would--and assuming that not every kid who is food 
insecure is going to need special ed, thank goodness, assuming 
100 percent receipt of the maximum food stamp benefit which 
other people get reduces food insecurity by 25 percent, you 
would be able to save about $1,250 per child annually, and that 
is a lot of children.
    So again I don't make these calculations, it is not my 
skill. But certainly other people have thought it through. And 
I think that in human terms it is incalculable.
    Ms. McCollum. Mr. Chair, I have two things to submit for 
the record. One is from Art Rolnick, who is at the Federal 
Reserve of the Bank of Minneapolis, on early childhood 
development. And it has a long-term study in it. We don't have 
very many. It has the Perry, which some people refer to as an 
old study because it is a 30-year study but it tracks kids for 
about 25 years. That is why it is old. And some information 
from Nobel laureate on early development.
    Chairman Spratt. Without objection.
    [The policy study, ``Early Intervention on a Large Scale,'' 
may be accessed at the following Internet address:]

 http://www.minneapolisfed.org/publications--papers/studies/earlychild/
                        early--intervention.cfm

    [Information from Nobel laureate follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. McGovern. Will the gentlelady yield me 5 seconds?
    Ms. McCollum. That would be up to the Chair. I am new on 
the committee, and I respect the Chair. If I have 5 seconds, I 
will yield it.
    Chairman Spratt. Without objection, these are made part of 
the record.
    Mr. McGovern.
    Mr. McGovern. I just wanted to--earlier today, earlier 
there was a reference made to WIC as being somehow this middle 
class/middle income program. I just wanted the record to 
reflect that in 2006 among WIC participants reporting some 
income, the average annualized family income was $15,577. I 
don't think that is a middle class or middle income program, 
and I just thought it was important to make that clear for the 
record.
    Thank you, Mr. Chairman.
    Chairman Spratt. Thank you.
    Mr. Yarmuth.
    Mr. Yarmuth. Thank you, Mr. Chairman, thanks to the 
witnesses. I would like to make a couple comments about some of 
the things that have been said and then I do have one question 
to ask. I want to address this question or issue of dependency. 
And you know we deal in words and sometimes words take on 
political consequences, and I know a lot of people like to 
refer to these programs as welfare programs, and so forth. And 
I have been in Congress for just a little over 2 years and 
before that I was with the private sector for 30 years and I 
ran businesses and have been involved in a lot of different 
organizations. And the other way to look at it, a different 
perspective on these programs that support working families, 
low-income families, is that this really is an employer 
subsidy. And we have--until we get to the point in this country 
where we are willing to demand that businesses pay a living 
wage and we allow them to hire people and pay them at rates 
which do not sustain families, then the programs we devise are 
not only defensible from a moral standpoint and a human 
standpoint, but also from the standpoint that we are actually 
subsidizing these employers. We are giving them a fungible work 
force that they can use at their convenience. And so we can't 
lose sight of that.
    The second thing is a little bit off topic, but Mr. 
Hensarling took a pot shot at the arts when he criticized the 
stimulative, or I guess he implied that there was no 
stimulative effect of, economic stimulative effect of the arts. 
And that may be true in his district. But in Louisville, 
Kentucky I will tell you that the arts are an incredibly 
important part of our community. We just had a run of Wicked in 
our community that grossed $1,300,000 a week for 4 weeks, 
brought people from across the region into the community. They 
stayed in hotels, they ate in our restaurants. I think there 
are figures that sustain the fact that the arts are one of the 
greatest multipliers in economic activity and millions of 
people literally throughout the country are employed there. So 
if you are going to stimulate the economy it is kind of hard to 
ignore the arts because they do play such an important role. 
Not to ignore the fact that they help sustain a certain level 
of civility in society.
    So all that being said, and I will get off my soapbox 
there, one of the things that really concerns me, and I am so 
happy to be on the Budget Committee, and we have alluded to 
this question in many different ways, the ability to, or the 
necessity to talk about the long-term costs and the long-term 
savings of these investments that we make in children. And it 
disturbs me that we deal with these PAYGO rules within a 5-year 
budget window and we are developing budgets over a year-to-year 
basis, which in my way of thinking discourages the type of 
long-range analysis of these types of benefits.
    Now, I am just curious, I will throw it open, as to what do 
you think this is a problem as well that our budgeting process 
and our thought processes is--in some way doesn't take into 
account what we have to take into account if we are going to 
make practical decisions or bad investments.
    Ms. Parrott. Well, I can start. I think that there is no 
question that not all spending is the same and not all tax cuts 
are the same and that when we evaluate policies we have to 
evaluate them on a cost/benefit analysis. And we have to be 
serious about that. And we have to be serious about making 
priorities because we don't have unlimited resources.
    Now, I don't think that means that we need to change the 
scoring rules and that we don't need to have PAYGO. What I do 
think it means though is that we need to be serious about 
priority setting. And when we have investments that we know 
have enormous payoffs for our economy, for the lives of 
individual children, and we know that they have payoffs, then 
we need to know what they cost, we need to understand their 
benefits, and we need to be willing to come up with the 
resources to pay for them.
    And so I think that there are limits in our ways of 
budgeting and our budgeting rules as to how much we can really 
change the rules to capture that in dollars and in a PAYGO 
sense, but I think that that is somewhat beside the point. The 
real point is what do we as a nation need to do to make sure 
that we are giving our kids the best possible start so that we 
have the best possible workforce and a society that we can be 
proud of, what is that cost and what is the best way to raise 
those resources to do that? And I think that it is somewhat 
cliche to say in the richest country in the history of the 
world even with our current economic problems we can afford to 
do things that are important. But I think it is not the case 
that we can't afford to do things like invest in early 
childhood education, we just have to make it a priority, and we 
have to make it a priority and be willing to pay for it.
    Dr. Frank. From my perspective children are always 
dependent. There is no such thing as a child who isn't 
dependent.
    Mr. Lott. Economists I think have told us that these are 
high quality care programs for at-risk kids that save $16 for 
every dollar spent and $11 in crime savings, that is $16 come 
from not being on welfare, crime savings paying for them in 
prison. And I know this is probably a bad thing to say in a 
budget meeting, but instead of looking at money these are 
people's lives. These are kids that are people who are living 
their lives in prison, and these are victims that we could save 
from becoming a victim, maybe saving somebody's life by 
investing in this child and keep them from killing somebody 
later on where we lost not only that victim, but we have lost 
that person now for the rest of their life in prison.
    Mr. Besharov. I am just going to echo what Sharon 
suggested. It is a Pandora's box because then you get into an 
argument about if I build that bridge or if I buy that tank you 
know what is the long-term payoff, so it does not help me 
balance the budget.
    And while I have the microphone I will say I agree with you 
completely about what happens with the employers of low wage 
workers. And that is another reason why we have to get these 
incentives right, because that is clearly the case, that 
certain employers take advantage of the fact that we as a 
government are providing subsidies for workers and then 
therefore not paying them what they ought to be paid, their 
market value.
    Chairman Spratt. Mr. Yarmuth.
    Mr. Yarmuth. Thank you. My time is up.
    Chairman Spratt. Thank you. At this point I would like to 
ask unanimous consent that members who did not have the 
opportunity to ask questions of the witnesses have at least a 
week, 7 days to submit questions for the record.
    If there are no further questions let me thank our 
witnesses once again. As I said, we had got the bookends right 
here of this discussion and we have had a healthy vigorous 
discussion today, and it leaves us with a lot of grist for our 
mill as we look upon the prospects of drawing up a budget 
resolution which we can pass.
    Mr. McGovern, would you like to say anything?
    Mr. McGovern. Mr. Chairman, I want to thank you and members 
of the committee for participating in this hearing. And again I 
will end as I began, saying that hunger is a political 
condition. We have the tools to end it. We need to develop a 
plan and we need to end it. This is a moral question. And I 
appreciate the testimony of all the panelists. Thank you.
    Dr. Frank. Thank you for the opportunity.
    Chairman Spratt. Ms. DeLauro.
    Ms. DeLauro. I want to say thank you to you, Mr. Chairman, 
and thank the panelists. And I think one of the points was 
revamping what the nutrition programs look like. We are going 
to have that opportunity with the child and nutrition bill when 
it comes up for reauthorization.
    I would also say that in the farm bill we appropriated $1.2 
billion for the food and vegetable program to move through our 
schools. I think we have to look at what our children are 
eating and make the appropriate changes in what is nutrition 
and what isn't. And we have to not underfund the program. We 
have to give it the resources it needs so that it is 
successful.
    Chairman Spratt. In all fairness, Mrs. Lummis.
    Mrs. Lummis. Well, thank you, Mr. Chairman. And I want to 
thank the witnesses. I want to echo the remarks of the previous 
speaker. It is also good for sustaining family farms and 
ranches to have good quality produce, fruits and vegetables 
available for the health and benefit of the people in this 
country, wealthy and poor, and sustains a very vital component 
of this Nation's backbone.
    So thank you again very much for this hearing, Mr. 
Chairman.
    Chairman Spratt. Once again thank you, and we look forward 
to working with you on the problems which we discussed today. 
Thank you very much for your input.
    [Question for the record submitted by Ms. Kaptur follow:]

       Question for the Record Submitted by Hon. Marcy Kaptur, a 
           Representative in Congress From the State of Ohio

    Many families can't make their mortgage payments or pay other bills 
because of the economy. Some school food service people are saying that 
families can't even afford to pay even the reduced price for school 
lunches. Should we be considering increasing the income eligibility 
standard for free school lunches?

    [Responses from Ms. Parrot to questions submitted:]

   Response From Ms. Parrot to Question Posed by Congresswoman Kaptur

    ``Many families can't make their mortgage payments or pay other 
bills because of the economy. Some school food service people are 
saying that families can't even afford to pay even the reduced price 
for school lunches. Should we be considering increasing the income 
eligibility standard for free school lunches?''
            center on budget and policy priorities response
    The first step we need to take is to make sure that all the low-
income children who are already eligible for free or reduced price 
meals are enrolled. By law, all children whose families receive SNAP 
(formerly food stamp) benefits are eligible for free school meals and 
must be automatically enrolled though a process known as ``direct 
certification. But a recent USDA report on state performance with 
regard to direct certification found that many children are being 
missed in this process. In Ohio, for example, 65 percent of the 
children who could be automatically enrolled for free school meals are 
missing out on this important simplification. Some of those children do 
eventually complete a regular school meal application, wasting parents' 
time and creating unnecessary paperwork for school staff. Worse, some 
children are never enrolled and miss out altogether on free meals. In 
twelve states, more than 25 percent of children who could have been 
automatically enrolled for free school meals were not enrolled at all.
    Two policy changes would improve and expand direct certification so 
that more eligible low-income children could be automatically enrolled 
for free school meals. First, Congress could expand the list of 
programs that school districts may use as a basis for direct 
certification. For example, Congress could allow states to use family 
income information from the Medicaid program to determine eligibility 
for school meals. Second, Congress could provide incentives to states 
that conduct exceptionally effective direct certification or show 
significant improvement.
    Another step Congress could take to assess the merits of increasing 
the income eligibility standard for free school meals would be to fund 
the pilot and evaluation of such a change that was authorized in the 
Child Nutrition and WIC Reauthorization Act of 2004. Before investing 
substantial resources in a nationwide change, it would be wise to find 
out how much of a barrier the 40 cents for a reduced price lunch and 30 
cents for a reduced price breakfast pose and what the effects of 
eliminating those charges would be on children's eating patterns and 
nutritional intake.
    Any effects of increasing the income eligibility standard for free 
school meals would also need to be weighed against the benefits of 
other important investments that could reduce food insecurity amongst 
low-income children. We believe that other investments for low-income 
families with children are a higher priority. For example, funding is 
insufficient to provide all eligible low-income families with housing 
assistance or child care subsidies. Making substantial investments in 
these areas might do more to alleviate poverty, and thus food 
insecurity, for families with children who now qualify for reduced 
price meals than eliminating the cost of school meals.

  Responses From Ms. Parrot to Questions Posed by Congressman Langevin

    Q: While programs like the Rhode Island Food Bank rely on a mix of 
funding streams to support their efforts, it is clear that government 
investment will be crucial to the continued success of these programs. 
Given this fact: What are the most effective programmatic investments 
to address hunger and poverty contained in the economic stimulus 
package, particularly in terms of their ability to stabilize families 
and promote economic activity?

    A: The American Recovery and Reinvestment Act recognizes that one 
of the best ways to boost consumer demand and preserve jobs is to put 
money in the hands of low- and moderate-income families, since they're 
the ones most likely to spend it. Funds will stimulate the economy only 
if they're spent rather than saved.
    We examined the likely impact on poverty of three tax provisions in 
the law: the Making Work Pay credit, the EITC expansions, and the 
expansion of the refundable portion of the Child Tax Credit. Taken 
together, we estimate that these three policies will protect 2.3 
million people--including 1 million children--from poverty. Other 
provisions, such as the temporary increase in SNAP benefits, increased 
TANF funding for states that provide aid to more families, and the 
unemployment insurance provisions, also will help reduce the extent and 
depth of poverty during the downturn.
    Below is a list of some of the key provisions which we believe are 
highly stimulative and which will help to respond to rising poverty and 
hunger:
    <bullet> President Obama's new ``Making Work Pay Tax Credit,'' a 
refundable credit worth up to $400 per worker earning between $1 and 
$95,000 (and up to $800 per working couple making between $1 and 
$190,000).
    <bullet> A major expansion of the Child Tax Credit to working-poor 
families with incomes as low as $3,000, which will provide the families 
of nearly 16 million low-income children with $15 billion in added 
income over two years.\1\
---------------------------------------------------------------------------
    \1\ These figures compare the cost of the Child Tax Credit to the 
cost if the threshold returned to $12,550 as it was scheduled to do 
under the law prior to the enactment of the ARRA.
---------------------------------------------------------------------------
    <bullet> Two expansions in the Earned Income Tax Credit that will 
provide 7 million low-income families with an additional $4.7 billion 
over two years.
    <bullet> The act also expands the Hope tax credit, which helps 
defray college expenses, so that almost 4 million college students from 
families too poor to owe income tax will be able to qualify for a 
partial credit. This measure will provide $3.7 billion in financial aid 
to low-income students.
    <bullet> The law gives states financial incentives to extend 
jobless benefits to many low-income and female workers who don't 
qualify for them because of outdated state eligibility rules.
    <bullet> It also includes a one-time payment of $250 to 56 million 
Social Security recipients and other retirees, veterans, and people 
with disabilities; as well as $4 billion to help renovate public 
housing developments, several billion dollars to support state welfare 
reform efforts, and $1.5 billion forhomelessness prevention.

    Q: What programs not contained within the stimulus bill should this 
committee consider for future budgetary priorities in addressing hunger 
and poverty?

    A: All of the provisions which are described above are temporary. 
The Budget Committee may wish to consider making some of the provisions 
of the stimulus--such as the expansion in the Child Tax Credit--a part 
of permanent law. Of course, any permanent expansions in mandatory 
programs or tax provisions are subject to pay-as-you-go rules and 
should, indeed, be paid for.

    Q: While the Food Bank and its member agencies are at capacity, the 
federal nutrition programs are underutilized in Rhode Island. In 
particular, the latest USDA report (Food and Nutrition Service, October 
2008) ranks Rhode Island has having one of the lowest participation 
rates in the country in the Food Stamp Program, now known as the 
Supplemental Nutrition Assistance Program (SNAP). Increased effort to 
enroll people in SNAP would translate into more people receiving the 
food resources they need for their families, and less pressure on the 
emergency food safety net, which is already stretched to the limit. I 
am, therefore, interested in determining: How can provisions for 
increased SNAP benefits in the stimulus best be utilized by states like 
Rhode that have such a low participation rate?

    A: The SNAP provisions of the stimulus bill are largely mandatory 
and will be provided to all households who are enrolled in SNAP. We 
estimate that over the next five years, $52 million in increased 
benefits will go to the 91,000 people on SNAP in Rhode Island. Of 
course, if Rhode Island was able to enroll more eligible people into 
the program, more low-income Rhode Islanders would benefit from the 
package.

    Q: Are there additional budgetary considerations that this 
committee can make to properly address this problem?

    A: We share your view that improving access to the SNAP program for 
eligible people is an important goal. To their credit, USDA has been 
working with states over the last 8 years to improve outreach and 
access. Many of these efforts have been focused on identifying and 
enrolling households that have not historically participated in SNAP.
    It is also important, however, for states to ensure that eligible 
families and individuals remain enrolled in SNAP after an initial 
application is approved. States must renew SNAP household eligibility 
at least once per year (although in most states they review eligibility 
for many households ever six months.) It is likely that some share of 
eligible households lose their SNAP benefits during this review because 
they are not able to complete the review process. This could be because 
they do not understand the questions on lengthy forms, they are unable 
to reach a caseworker on the phone or they cannot take time off work to 
go into the human service office for a face-to-face interview. More 
work is needed to investigate how to facilitate on-going SNAP 
enrollment among eligible households. Finding ways to retain eligible 
people would likely improve food security among needy households and 
would increase state administrative efficiency because many households 
reapply for benefits shortly after they fall off the program. The 
Committee could help to highlight this issue and encourage the 
Appropriators to provide funding to research how states could improve 
retention.

    [Whereupon, at 12:30 p.m., the committee was adjourned.]

                                  <all>

</pre></body></html>
